<html>
<title> - MANAGING RISK AND INCREASING EFFICIENCY: AN EXAMINATION OF THE IMPLEMENTATION OF THE REGISTERED TRAVELER PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    MANAGING RISK AND INCREASING EFFICIENCY: AN EXAMINATION OF THE 
           IMPLEMENTATION OF THE REGISTERED TRAVELER PROGRAM 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2007

                               __________

                           Serial No. 110-64

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-959 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 







                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                      Mathew Washington, Director

                          Erin Daste, Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     3
The Honorable Paul C. Broun, a Representative in Congress from 
  the State of Georgia...........................................    17
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California............................................    18
The Honorable Eleanor Holmes Norton, a Delegate in Congress from 
  the District of Columbia.......................................    15

                               Witnesses
                                PANEL I

The Honorable Kip Hawley, Assistant Secretary Transportation 
  Security Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                                Panel II

Mr. Steven Brill, Chairman and Chief Executive Officer, CLEAR/
  Verified Identity Pass, Inc.:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24
Mr. Tom Conaway, Managing Partner, Homeland Security, Unisys 
  Corporation:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Mr. Bill Connors, Executive Director, National Business Travel 
  Association:
  Oral Statement.................................................    32
  Prepared Statement.............................................    33


                      MANAGING RISK AND INCREASING
                     EFFICIENCY: AN EXAMINATION OF
                       THE IMPLEMENTATION OF THE
                      REGISTERED TRAVELER PROGRAM

                              ----------                              


                         Tuesday, July 31, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Transportation Security
                             and Infrastructure Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:45 p.m., in 
Room 311, Cannon House Office Building, Hon. Sheila Jackson Lee 
[chairwoman of the subcommittee] Presiding.
    Present: Representatives Jackson Lee, Norton, Perlmutter, 
Lungren, Bilirakis and Broun.
    Also Present: Representative Lofgren.
    Ms. Jackson Lee. Thank you for your patience.
    Good afternoon. The subcommittee will come to order. The 
subcommittee is meeting today to receive testimony on the 
Transportation Security Administration's partnership with the 
private sector administering the Registered Traveler Program. 
However, before I begin, I ask for unanimous consent that Ms. 
Lofgren, a member of the full committee, may sit and question 
the panel during today's hearings.
    Without objection.
    Let me also acknowledge the presence again of Ms. Lofgren--
welcome--a member of the full committee; Mr. Perlmutter, a 
member of the subcommittee; Ms. Holmes Norton, a member of the 
subcommittee who is present here today; and the ranking member, 
Mr. Lungren; Mr. Bilirakis, a member of the subcommittee; and 
we are very, very pleased to have, I would like to say, Dr. 
Paul Broun, who is a member of the subcommittee, a newly minted 
Member from Georgia.
    And let me make sure that I have the pronunciation correct. 
It is Dr. Broun, Congressman Broun?
    Mr. Broun. Correct.
    Ms. Jackson Lee. We welcome you to the subcommittee, and I 
think that you will find that you are at the cutting edge of 
helping to secure America. We welcome you greatly.
    Let me welcome our Administrator, the Transportation 
Security Administrator, Kip Hawley.
    I will now yield myself the appropriate amount of time to 
begin my opening statement. I think, most timely for this 
particular hearing--I want to thank the staff for their work, 
because we have been facing a number of added concerns over the 
summer travel season.
    This is not a hearing on whether your plane was late coming 
to Washington today, but it is recognizing that we have 
challenges in the season, particularly as we have publicly read 
the National Intelligence Estimate which--I know that there is 
an enormous amount of chatter and concern about the actions of 
those engaged in that chatter.
    We also know that we have faced, as I indicated in the 
hearing last week, a rather unusual set of circumstances in the 
Phoenix, Arizona, airport that was made public last week; and I 
made the point very clearly that that will have to cease and 
desist. And those were the actions shown by video of the 
airport being, in essence, uncovered by Transportation Security 
Administration personnel for a period of time, and that the 
entering and leaving was subjected to very minimal scrutiny and 
screening.
    I do want to acknowledge that the Administrator and myself 
have had, I think, some in-depth conversations on this matter; 
we are working on the matter. There is still an opportunity for 
us to hold hearings on this issue, but it is all in the larger 
picture of, how do we thoroughly secure the Nation's airports 
and the Nation's transportation system.
    With that, I would like to begin to take this opportunity 
to thank you all for joining us this afternoon so that we can 
begin our exploration of the Registered Traveler Program.
    In the wake of September 11th, aviation security was made a 
Federal responsibility. And I think everyone here today would 
agree that aviation security has improved substantially. 
Protecting the Nation, ensuring aviation security has required 
a layered approach. Now, this layered approach may not be a 
great burden to the public, but many frequent fliers have 
pleaded for relief from lengthy preflight security lines and 
other security policies to which we all have become accustomed.
    At the same time, I am in agreement with Administrator 
Hawley that our chief and ultimate responsibility, even beyond 
convenience--and I happen to be one of those advocating for 
convenience--is to have a balanced and direct and sure approach 
to the traveling public's security and how do we get there.
    I believe that the Registered Traveler Program tries to 
strike a compromise between the goal of security and the 
freedom to travel. But I am willing to listen to the challenges 
that TSA faces and how we can address their concerns. This 
should be a meeting that everyone is as honest and as 
straightforward as they can possibly be. We can find a way if 
we find the honest pathway.
    The Registered Traveler Program, in concept, is a 
worthwhile idea; it is, in fact, very simple. Frequent 
travelers will voluntarily submit to the background checks and 
give the TSA their fingerprints and an iris scan. The RT 
Program is a way for TSA to narrow its pool of potential 
problems; even if it is not popular, it will separate a small 
percentage of the people from the large stream of air travelers 
and give TSA an advantage in screening.
    Each time I make those comments again, I am interested in a 
forthright discussion this afternoon. David Stone, the former 
Acting Administrator of TSA, stated that the RT plan will 
provide frequent travelers with the means to expedite the 
screening experience without compromising on security.
    I will be the first to tell you that there is not a perfect 
layer of security. There is no airport screening system that is 
100 percent risk free, but the concept of the RT Program 
administered in a correct way could revolutionize the way 
security is administered. However, the RT program will be of 
limited value to participants if they have to, at this point, 
continue into secondary screening, at least having not gone 
through this hearing and hearing the reasons why such occurs.
    I understand the RT Program is private-sector driven, but 
TSA can provide meaningful support, and I believe we can find a 
resolution. As much as I advocate for the technology, let me 
say I had the pleasure today of seeing it work. It is 
effective, and we should not ignore effectiveness; but as much 
as I view the program as effective, I want to be sure that it 
is secure. I believe that if TSA and the vendors work hand in 
hand, maybe we will have a successful product.
    The RT Program is designed to improve the security process 
by helping TSA align screeners and resources with potential 
risks. Approved travelers will be positively identified at the 
airport through biometric technology. These passengers will go 
through expedited security screening, specially designated 
lanes in their home airport. Training, however, is key; and we 
must train the personnel, TSA and the private sector. I 
understand things will vary according to location as each 
airport will deploy different technologies and will have 
different security checkpoint configurations.
    I want a system that all airports can use; I don't want a 
piecemeal pilot program. If we are to move forward on this 
particular program, I think it is important that we find a way 
to make it work.
    The second most important is security, after convenience. 
Since more is known about RT users, TSA screeners will be able 
to focus their efforts more effectively. Customer service has 
been mentioned first; I think I would like to change the order 
and indicate that security must be first.
    The Chair now recognizes, as I close, the ranking member of 
the subcommittee, the gentleman from California. And let me 
simply say, as I yield to him, this hearing should be about 
solutions, working together and about securing America. With 
that, I yield to the distinguished gentleman for an opening 
statement.
    Mr. Lungren. Thank you very much, Chairwoman Jackson Lee.
    I want to welcome Assistant Secretary Kip Hawley. You have 
been an outstanding leader for the Transportation Security 
Administration. You have been confronting our transportation 
systems after 9/11.
    I also look forward to hearing from our private sector 
witnesses, concerning their experiences with the Registered 
Traveler Program and how we might actually get it working 
nationwide.
    I believe RT is the kind of innovative security program we 
have been encouraging the private sector to develop. We have 
said the government can't do everything; we ought to utilize 
the private sector when they have expertise that we cannot 
duplicate. We would like to see a partnership between the 
private sector and the government.
    I must say, I have been disappointed with the lack of 
rapidity that we have seen in the development or approval of 
this program by TSA. I just, from the beginning, thought the 
Registered Traveler Program makes sense. Those who are frequent 
travelers are willing to pay a premium to have less hassle, to 
not have to worry whether they are going to have a line that is 
an hour, hour-and-a-half long. And it seems to me, if we are 
trying to be effective in terms of screening passengers, we 
need to reduce the size of the haystack.
    One of the ways of doing it is getting people who 
voluntarily give us more information than otherwise would be 
available; and certainly, giving us a confirmable biometric is 
important. This is done voluntarily: They give us their 
thumbprint, they can have an iris scan, they have a picture 
already on file. We saw all those things combined in the kiosk 
that is over on display in the Longworth Building today--along 
with its ability to check shoes while they are still on your 
feet, I would like to add. I just think that makes sense.
    If I were to step back and try to develop a program, it 
seems to me that is the kind of program I would like to 
develop. That is why I am concerned that with all the 
innovation that I have seen come out of TSA and all the 
flexibility, this appears to be an area in which there has been 
an amount of inflexibility; and I am disappointed with that. I 
think we can facilitate movement through airport screening 
areas while maintaining a high security level. We would benefit 
TSA, the airlines and their passengers.
    The other thing is, if we can reduce the lines and have 
people move through those lines faster, you reduce the security 
risk that is inherent at the airport itself where you have a 
congregation of passengers and employees. We saw what happened 
at the Glasgow Airport. They certainly weren't going to get to 
a plane, but they were going to get to passengers and other 
infrastructure right there. So anything we can do to actually 
expedite the movement of people makes sense.
    So I want to see the public-private partnership working 
together. I want to see it as harmonious as possible. And I am 
very much looking forward to hearing the testimony of Mr. 
Hawley and those others who are in the development stage and 
implementation stage.
    We now have tens of thousands of people using it. We have 
had the pilot project for a number of years at a number of 
airports. At some point in time you have to say, the program is 
going to work or not going to work.
    I know you folks get tired of me saying this, but man, we 
moved faster from the beaches of Omaha and the other beaches 
there at Normandy, through to Berlin, than we have in going 
through the pilot project for Registered Traveler; and I don't 
understand why we should have any more delay.
    The one positive I see is, the recent development of 
Registered Traveler interoperability standards is what we have 
been waiting for. I am glad that we have it now, and I am glad 
we have those standards against which the program and the 
equipment are going to be measured. So I would just hope that 
we can move on this, and I hope that the testimony today will 
give us some idea where we are in this line, how much more 
needs to be done; and if there are problems, administratively 
or legislatively what we need to do to fix them.
    With that, I yield back the balance of my time.
    Ms. Jackson Lee. I thank the gentleman for his remarks.
    Let me remind my colleagues that other members of the 
subcommittee are reminded that under the committee rules 
opening statements may be submitted for the record.
    Ms. Jackson Lee. Votes have been called, but I am going to 
yield to the Administrator for his opening remarks. I would 
like to welcome Kip Hawley, the Administrator for the 
Transportation Security Administration at the Department of 
Homeland Security.
    We would like to welcome you back, and we have many 
challenges before us, of course.
    We would like to give you an opportunity before the members 
go to vote--or some may go, but we would like to give you the 
opportunity to present your testimony.
    Without objection, Administrator Hawley's full statement 
will be inserted into the record. And I ask that you summarize 
your statement in 5 minutes.

      STATEMENT OF HON. KIP HAWLEY, ASSISTANT SECRETARY, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hawley. Thank you. Good afternoon, Chairwoman Jackson 
Lee, Ranking Member Lungren and members of subcommittee. Thank 
you for the opportunity to put the Registered Traveler Program 
into context. I think the comments the chairwoman made about 
Phoenix underscore the many serious issues before us in 
aviation security.
    In putting the Registered Traveler Program in context, I 
think it is important to note that that context is dominated by 
today's threat environment. Two weeks ago the National 
Intelligence Estimate confirmed publicly what members of this 
committee have known for quite some time. We are under 
heightened terrorist threat; it is real, and it will not go 
away soon.
    We know of continued terrorist interest in attacking the 
aviation sector. We know of training in the use of improvised 
explosive devices. We must account for the possibility of 
terrorist dry runs, and effects of the so-called ``clean 
skinned'' terrorists,'' those not known to the authorities who 
have no obvious, identifiable risk factors. I21Madam 
Chairwoman, Mr. Lungren and members of the committee, you have 
made this committee's expectations very clear to me, that TSA 
must focus its resources on the highest priority efforts 
against the active terrorist threat. We share the same 
priorities, partner with others to help stop threats at their 
earliest stages, and by our own actions, deter and disrupt this 
adaptive enemy whose goal is mass casualties and dramatic 
destruction. That is the real problem we face every day.
    The threat is real. TSA's responsibility is very real, and 
the question is, how does RT fit into that picture?
    We all want to go through faster with less hassle. We know 
that we are not the terrorists; why waste time screening me? A 
passenger goes through screening knowing that he or she is low 
risk, and it is logical to think that there has to be a way not 
to waste resources screening me. The crux of the problem is how 
we define ``we'' and ``me.''
    Just us relying on frequent flier miles isn't enough. In 
the age of the ``clean skinned'' suicide bomber, just the 
absence of a negative is no longer enough. Once we define 
``trusted,'' that provides a blueprint for vulnerability, and a 
security risk introduced at RT becomes a risk for every 
passenger, because what we make easy for one becomes easy for 
many. We need many layers of security to mitigate the risk of 
defeating anyone. We want to increase the level of security, 
not decrease it.
    After prioritizing our security initiatives, based on risk, 
TSA decided the taxpayer resources are best applied to more 
critical needs than Registered Traveler: explosive detection 
training, a better quality workforce through better recruiting, 
higher retention, pay for performance, career progression, 
additional layers of security and behavior detection, VIPER 
teams, document checking, employee screening, daily checkpoint 
explosive detection drills, better intelligence integration, 
proactive Federal air marshal missions, secure flight, 
checkpoint process improvement, harmonization of international 
security measures, more effective use of existing affordable 
technology, active engagement with our partners in terms of 
security, general aviation, rail and port security, better 
vetting of those with access with critical infrastructure to 
name just several highlights. These are the security measures 
that help protect against the threat we know we face.
    In the context of these other activities, RT is not now an 
effective operation tool against the ``clean skinned'' 
terrorist; therefore, we have not reduced the security process 
for RT passengers. There is lots of room for innovation that 
doesn't lower security, doesn't cost the government money or 
doesn't burden extra passengers. However, TSA is not waiting 
for RT; we are moving forward to improve the security process 
for all passengers.
    As I announced last week, we are reviewing the checkpoint 
process to make it less dependent on the 25-foot by 15-foot box 
at the checkpoint. We understand that the legacy process 
appears to pit TSA against the passengers by jamming us into a 
small space and launching 2 million passengers a day through 
the magnetometers at us. We can improve security and make the 
process smoother by spreading out security, calming down the 
environment and changing our security measures. I am hopeful RT 
can play a role in this effort.
    Thank you for an opportunity to discuss these issues, and I 
will be happy to answer any questions.
    [The statement of Mr. Hawley follows:]

 Prepared Statement of the Honorable Kip Hawley, Assistant Secretary, 
  Transportation Security Administration, U.S. Department of Homeland 
                                Security

    Good afternoon, Chairwoman Jackson-Lee, Ranking Member Lungren and 
members of the Subcommittee. Thank you for this opportunity to speak 
with you regarding the progress the Transportation Security 
Administration (TSA) has made in implementation of the Registered 
Traveler (RT) program, currently in its pilot phase.
    The Aviation and Transportation Security Act (ATSA), P.L. 107-71, 
charged TSA with protecting the Nation's transportation systems while 
facilitating the movement of people and commerce. TSA is committed to 
providing comprehensive security to our Nation's transportation 
systems. At our Nation's airports, TSA has implemented a risk-based, 
multi-layered approach in order to efficiently allocate scarce security 
resources and institute redundancies in the system to thwart potential 
attacks. We know that where aviation security is concerned, there is no 
single silver bullet that will protect against all threats. Moreover, 
aviation security exists in an ever-changing security environment 
requiring TSA have the flexibility to change procedures and 
requirements quickly to respond to new threat assessments.
    This has never been more clearly evidenced than by the prohibition 
on liquids implemented across U.S. airports in the aftermath of the 
foiled transatlantic terror attack of August 10, 2006. In less than one 
day, TSA was able to implement a completely new security regime 
nationwide. Just a few weeks later, after a thorough evaluation of the 
potential threat, we were able to reevaluate those procedures and allow 
some liquids in passenger carry-on baggage. We are only able to quickly 
respond to newly discovered threats because Congress has given us the 
discretion to adapt our security programs as necessary. We use that 
flexibility every day through unpredictable security procedures 
designed to counter constantly changing threats, known and unknown. It 
is imperative that we maintain this flexibility as we move forward with 
any change in airport security, including a developing RT program.
    It is against this backdrop that TSA's RT program and its 
development and implementation must be understood and evaluated. 
Section 109 of ATSA authorized TSA to ``[e]stablish requirements to 
implement trusted passenger programs and use available technologies to 
expedite the security screening of passengers who participate in such 
programs, thereby allowing security screening personnel to focus on 
those passengers who should be subject to more extensive screening.'' 
It is important to note a number of things about this authority. First, 
Congress understood in establishing this authority that a trusted 
traveler program, although not critical to security, is a program that 
may be beneficial to the traveling public and could complement TSA's 
layered approach to aviation security, allowing TSA to focus resources 
elsewhere. Second, Congress recognized that any trusted traveler 
program would be dependent on the availability of appropriate 
technologies.
    Essentially, the RT program is a privilege program that, if fully 
operational, would offer a streamlined security experience for 
applicants who pay a fee and meet both TSA and the Service Provider's 
eligibility requirements. RT would provide benefits to participants 
while encouraging commerce, safeguarding personal privacy, ensuring a 
self-sustaining program, and enhancing the protection of the traveling 
public, all without disadvantaging the general public when they fly.
    Currently, RT is a public/private sector partnership pilot program, 
supported and overseen by TSA, with distinct roles and responsibilities 
for each participating entity. TSA is responsible for setting program 
standards, conducting security threat assessments of participants, 
performing physical screening of RT participants at TSA checkpoints, 
testing new technologies prior to implementation, and other forms of 
oversight. The private sector Service Providers are responsible for 
enrollment of RT participants, verification of participants' RT status 
using biometric technologies at RT kiosks, and related services. 
Participating airports and air carriers oversee their Service Providers 
and ensure that those Service Providers comply with the requirements of 
the RT program. As part of a complex, layered security scheme, RT may 
operate differently at each participating airport, within the broader 
security plan of the airport.

Registered Traveler Yesterday: A Brief History of Program Development:
    Mindful of the challenges and potential of RT, TSA first undertook 
an elaborate pilot program to explore technology, customer reaction, 
and private collaboration in the development of a comprehensive, 
nationwide RT program. This pilot was funded by the Federal Government. 
During the summer of 2004, the Registered Traveler Pilot Program was 
initiated at five airports on a staggered basis around the country. 
This initial pilot ended in September 2005.
    In June 2005, TSA initiated a new pilot, also funded principally by 
the Federal Government, known as the Private Sector Known Traveler, at 
Orlando International Airport (MCO), to test the feasibility of a 
public-private partnership model for the RT program. The initial 
successes of the pilot programs demonstrated that the biometric 
verification technology can work under airport operational conditions 
and that the public is willing to pay a participation fee and accept 
private industry involvement.
    Following the Orlando pilot, TSA worked with private industry to 
roll out an expanded public-private partnership pilot to test 
interoperability among multiple service providers. Public expectations 
were raised by the pilots and the appealing original notion that vetted 
travelers could be sped through security while higher risk passengers 
received more scrutiny.
    After my confirmation at TSA in late July 2005, I began a 
reassessment of TSA's security priorities based on Secretary Chertoff's 
risk-based approach to security throughout the Department. It was clear 
to me that TSA needed to apply its resources to achieve greater 
capability to stop attacks using explosives brought on an aircraft by 
terrorists. The Committee is well-familiar with the extensive progress 
that TSA has made in that effort. TSA has made significant progress in 
targeting our procedures towards specific threats and enhancing our 
workforce. Our Transportation Security Officers (TSOs) now receive 
enhanced training in detecting components of improvised explosive 
devices.
    We are also taking action to demonstrate our increased confidence 
in our TSOs. In July 2006, we announced that the TSO position was being 
reclassified to a specialized job series, in recognition of the nature 
of the work they do. In addition, we rely heavily on TSO input through 
the National Advisory Council, which represents TSOs throughout the 
nation on workforce issues. We have created an additional forum through 
our Idea Factory to promote workforce ideas on any number of topics, 
from technology and detection to quality of life issues.
    As much as the RT concept appeals to all of us, it would be 
security folly to reduce security based only on the lack of prior 
criminal or discovered terrorist activity. The reality of the ``clean 
skinned'' terrorist--a terrorist without criminal history or 
identification on a watch-list--was made abundantly clear in July of 
2005 when such terrorists attacked the London transit system. After 
prioritizing our security initiatives on a risk basis, TSA decided that 
taxpayer resources were best applied to more critical needs than RT. 
However, given the extraordinary public interest in the program, and 
the appealing logic behind it, TSA was willing to give wide latitude to 
private sector entrepreneurs, airlines, and airports if they were able 
to construct an RT program that did not increase risk to the system. It 
was this private sector-led program that TSA announced in February of 
2006.
    Private sector partners stepped up and organized themselves to set 
interoperability standards approved by TSA in May of 2006. This process 
took longer than initially expected, but produced the notable result 
that RT and TSA now have access to an interoperable biometric 
credentialing system, built in less than a year, and at no cost to the 
government.
    Rather than wait for an entire rule-making process before testing 
this new system, TSA and the industry began a pilot, known as the 
Registered Traveler Interoperability Pilot (RTIP). TSA released the 
RTIP Fee Notice in the Federal Register and developed a comprehensive 
set of guidance documents allowing the private sector to implement the 
interoperability pilot phase. The initial fee of $28 per participant 
covers TSA's costs for vetting and program management. Any additional 
services or costs associated with RTIP will be established by the 
vendor, who may, in turn, charge the participant for those services. 
This expanded pilot is designed to ensure the interoperability of 
biometric cards among multiple services providers at different airports 
across the country.
    The interoperability pilot began in January 2007, when the first 
airports/air carriers were approved by TSA to provide RT services. With 
the addition of Reno/Tahoe International Airport and a second active RT 
vendor in May 2007, TSA is closely monitoring RT interoperability to 
ensure that participants of one vendor can seamlessly use RT services 
provided by another vendor. This is a key component of RT that must be 
fully functional prior to launching the program nationwide.
    Currently, seven airports and three air carriers are participating 
in the RTIP in nine locations. Four airports and one air carrier have 
initiated agreements with a Service Provider but are not yet 
operational, and four airports are currently soliciting Service 
Providers for RT. TSA has approved five Service Providers, with three 
currently offering active service and five more are in the approval 
process.

Registered Traveler Now: An Overview of the Current Program
    RT, still in the pilot phase, is an entirely voluntary program; 
airports have the option to utilize the program and passengers may 
voluntarily sign up for the RT service. At airports that choose to 
offer the RT service, TSA is intimately involved in ensuring that any 
RT service offered has no negative impact on the security of passengers 
traveling through the airport. TSA and the airport work closely 
together to ensure the overall security plan of the airport is updated 
and provides robust security to the flying public.
    While TSA will largely play a facilitating role, the private 
industry is responsible for market definition, program benefits, and 
interoperability. TSA-approved vendors are responsible for marketing 
the RT program to the general public, signing up participants, 
collecting enrollment fees, and providing verification services. 
Vendors are also responsible for working with airport authorities to 
modify airport configurations to minimize wait times, enhancing 
customer service, partnering with airport concessions and services to 
provide membership benefits, and investing in new technologies to 
facilitate security screening.
    As part of the RT program, TSA uses participants' biographic data 
to conduct threat assessments against terrorist-related, law 
enforcement, and immigration databases that TSA maintains or uses, and 
ensures that participating airports maintain effective security 
procedures. As private vendors innovate, explore and seek to 
incorporate new technologies, TSA must ensure that each system is 
subject to rigorous testing. TSA will ensure that implementation of new 
technology does not compromise security.
    Passengers using RT checkpoints today walk up to a biometric 
reader, place their card in the reader, and present their biometric 
(fingerprint or iris scan) for verification. Once their current RT 
participation status has been verified, they can then proceed directly 
to TSA screening where they will go through the same screening process 
as all passengers. In most cases, RT participants use an integrated 
lane and may go to the head of a screening line.
    A recent issue raised by the RT community is TSA's requirement that 
RT members, like all commercial aviation travelers, show government-
issued photo identification when their boarding passes are inspected at 
security checkpoints. Based on the current aviation threat level, TSA 
views this step of the screening process as an essential layer of 
transportation security and the best way to provide assurance that the 
passengers presenting themselves at security checkpoints are the 
passengers identified on their boarding passes. Further, the 
configuration and location of RT verification kiosks, in relation to 
the security screening checkpoints, varies in different airports. Lack 
of control over the ingress to both screening and the secured area is a 
practical factor with possible security consequences. When establishing 
nationwide program standards, TSA must consider differing airport and 
vendor models.Despite these concerns, we believe that, under certain 
circumstances, TSA may be willing to accept RT cards in place of 
government-issued ID cards. For example, we have stated that if all RT 
Service Providers adopt a card protocol requiring photographs, legal 
names, and appropriate security features, we would reconsider our 
position. However, the Registered Traveler Interoperability Consortium 
(RTIC), which includes all five TSA-approved Service Providers, has 
decided through consensus not to add this requirement to the technical 
interoperability specification governing their mutual operation of the 
program. In alignment with the public/private partnership model for the 
RT Program, TSA will continue to act in an oversight role, and allow 
private industry to agree upon standards for business and technical 
interoperability. In short, if the RTIC collectively decides to 
implement a photograph and other security measures on the standard RT 
card, we are willing to consider accepting an RT card as sufficient 
identification to pass through TSA screening.
    It is important to note that the RT program is still in its pilot 
stage, and TSA is continually assessing security and operational issues 
to determine whether changes to the pilot are necessary. The market, 
through participating airports/air carriers and Service Providers, will 
help determine the future shape and scope of RT by recommending new 
technologies and practices that provide an equivalent or higher level 
of security and service compared to current procedures which TSA will 
evaluate based on the guiding principles of RT.

Registered Traveler Tomorrow: Where We are Going
    As the interoperability pilot matures, we expect to begin the 
rulemaking process to further define RT. We will use the lessons 
learned in implementing the RTIP and feedback from RTIP participants 
and partners to develop necessary regulations. Initial benefits of the 
RT program may include modified airport configurations to minimize RT 
passenger wait times, enhanced customer service for RT participants, 
such as divesting assistance, concierge service for luggage, parking 
privileges, and discounts for service or concessions. We expect 
benefits to be defined as the private sector identifies and invests in 
innovations.
    While working to facilitate where the market may take RT, we must 
also consider that the number of RT passengers flying on a given day is 
likely to be only a small portion of the travelers who pass through TSA 
security. The total membership in the RTIP is 39,000. To put that in 
perspective, if the entire current enrollment of RTIP were to fly every 
day of the year, RT passengers would amount to less than 2% of the 2 
million passengers screened by TSA. We are working to ensure that as 
the RT program matures, we are not disadvantaging the general public.
    TSA is excited about the technological innovation potential of RT 
and is already seeing the benefits of the biometric credentialing 
system; some technology companies have already begun to bring new 
security innovations to us for testing. We are working with those 
entities to provide testing, including laboratory testing, and feedback 
as products develop. The critical factor in developing technology is 
that it work seamlessly with security protocols and that it not 
compromise security in any way.
    To this end, TSA has a consistent process for the evaluation and 
testing, acquisition, deployment, and operation and maintenance of 
security technologies procured by the agency to meet a mission need. 
Since its inception, TSA has utilized this process with multiple 
vendors and believes vendor responsiveness and technology maturity 
significantly contribute to the approval process. In response to the RT 
program and the introduction of security technologies designed for an 
accelerated access control lane for passenger screening, TSA has 
developed a similar process that permits the rapid but thorough testing 
of any equipment proffered by the private sector to substitute for 
current security protocols. This process provides assurance to TSA that 
the technology introduced into the RT program will not compromise 
security. In short, we are committed to facilitate the rapid deployment 
of technology to RT participants once we know that the technology will 
achieve its objective and that its implementation will not diminish 
security.
    We hope to see new improved technology in the market as RT matures, 
and look forward to continued technological success from private 
industry as they search for ways to make the RT service more 
successful. TSA will continue to work with the RT community and our 
network of airports and air carriers to advance our mission of securing 
our Nation's transportation network.
    Thank you for the opportunity to testify today. We look forward to 
working with the Subcommittee as we continue our efforts to strengthen 
homeland security. I will be pleased to answer any question you may 
have.

Attachment:
Airlines involved in initial RT pilot (4):
Northwest Airlines
United Airlines
Continental Airlines
American Airlines

Airports involved in initial RT pilot (5):
Minneapolis-St. Paul International, MN
Los Angeles International, CA
George Bush Intercontinental/Houston, TX
Logan International, MA
Ronald Reagan Washington National, VA

Locations currently operating RT programs (9):
Albany International, NY
Cincinnati/Northern Kentucky International, KY
Indianapolis International, IN
Jacksonville, FL
John F. Kennedy International, NY
        (Virgin Atlantic, British Airways, and Air France)
Newark Liberty International, NJ (Virgin Atlantic)
Orlando International, FL
Reno/Tahoe International, NV
Norman J. Mineta San Jose International, CA

Airports currently in agreement with a service provider, but RT is not 
yet operational (5):
Air Tran at LaGuardia International, NY
Greater Rochester International, NY
Little Rock National, AK
San Francisco International, CA
Westchester County, NY

Airports currently soliciting service providers (4):
Hartsfield-Jackson Atlanta International, GA
Denver International, CO
Ronald Reagan Washington National, VA
Washington Dulles International, VA

Approved Vendors (5):
Fast Lane Option Corporation (FLO)
Unisys Corporation
Verant Identification Systems, Inc.
Verified Identity Pass (VIP) (CLEAR)
Vigilant Solutions

Vendors Seeking Approval (5):
Priva Technologies, Inc
Fly Fast, LLC
PKM Music, LLC
DSCi
VIP Alaska

    Ms. Jackson Lee. I thank the Administrator, and I would 
like to call for a recess for the votes. And we will return. 
This is going to be eight votes. I don't want to send out the 
TSA employees to find you. Please be relaxed, and we will 
return as soon as we can. Thank you very much.
    The hearing is in recess.
    [Recess.]
    Ms. Jackson Lee. The hearing will come to order.
    Might I thank the Administrator again for his insightful 
testimony?
    At this time, I remind each member that he or she will be 
granted 5 minutes to question Panel I, and I now recognize 
myself for questions.
    Let me first of all acknowledge, Mr. Hawley, that as the 
ranking member indicated, we thank you for your service and 
those of us in this committee have to be on the same page as 
relates to the security. I think the jurisdiction of this 
subcommittee has one of the greatest components of impacting 
the public. The public is constantly using either critical 
infrastructure or some form of transportation, even as we speak 
today.
    So we certainly agree with your concerns about security, 
but we also are interested in efficiency, effectiveness and 
the, if you will, corralling of resources globally to be 
effective in our security.
    Give me the challenges that you foresee with an expanded 
Registered Traveler Program. And wouldn't it seem logical that 
if we can find a better mousetrap, a more refined technology, 
that that speaks to both of our concerns, which is a secured 
homeland and an impenetrable system that can help us in the 
flow of people and commerce?
    Mr. Hawley. Yes, ma'am, I think that is exactly right. 
There is a lot of promise in technology as being able to 
accelerate this program. I think Registered Traveler has great 
promise in the future. It has already delivered a biometric 
credentialing system that is interoperable, that is a great 
thing.
    The technology is not yet there to provide significant 
screening benefits to the RT members, but I am confident that 
as technology develops, that will occur. At least one 
technology provider has already stepped up and is working with 
us to try to provide an answer that would allow folks to keep 
on their shoes, if that works. But I see that as a way forward.
    Ms. Jackson Lee. What made you believe the technology is 
not there?
    Mr. Hawley. Our testing--and I may not be able to brief you 
on a classified basis as to why that is the case. Just because 
it is not ready for prime time now, I am confident that GE will 
develop a program that we can use.
    Ms. Jackson Lee. Let me go particularly to Orlando where, 
for a period of time, you did not require a picture ID; 
however, subsequent to that, it seems that you began to require 
a picture ID. In a letter dated July 2nd from Jeffrey Sorrell, 
he wrote that a government-issued photo ID is the best way to 
provide assurance that passengers who present themselves as 
individuals are identified on the boarding passes.
    Now, I know that having experienced a pilot of the 
technology, a printout comes out with your picture on it that 
you can certainly identify, but why did TSA suddenly require 
these RT numbers using RT lines to show a picture ID and an RT 
card before entering the line?
    Mr. Hawley. Because it is going to be a national program 
and needs to be interoperable. And the airport in Orlando is 
well configured for a Registered Traveler, but it has to be 
interoperable at all airports; and if the power were to go out, 
for instance, and the printer would not work for some reason, 
having a valid federally issued photo ID, we believe, has 
significant security benefit.
    Ms. Jackson Lee. Do you remain open to--you have indicated 
that you foresee improved technology. Do you foresee the 
improved technology where you will not ask for the independent 
photo ID?
    Mr. Hawley. Well, we work with the Registered Traveler 
Interoperability Consortium for whatever interoperable 
standards are for Registered Travelers, so we are open to that. 
We just want to have one that, if we are going to use a photos, 
it be secured.
    Ms. Jackson Lee. Do you see using a photo on the RT card? I 
understand TSA has suggested that in the past as an option?
    Mr. Hawley. That is an option, but we need it to be an 
interoperable one where all cards are subject to the same 
security standard.
    Ms. Jackson Lee. Because if a card were revoked, someone 
would still be carrying around the card with the picture and so 
that would negate what you want it to do?
    Mr. Hawley. Correct. Potential vulnerability.
    Ms. Jackson Lee. Let me see if you are prepared to accept 
the viability of the technology, but you are asking to have 
added measures of enforcement or security along with this 
technology.
    Are you today saying that the Registered Traveler Program 
is not a program that you feel is sufficiently secure?
    Mr. Hawley. The current--if we are talking about technology 
in Orlando, we have other measures in place to protect the 
public. However, more widespread use of that machinery would 
not be realistic from a staffing point of view, and it alone 
does not provide the protection we require at this point.
    Ms. Jackson Lee. I don't think the technology will 
substitute for, obviously, the overall screening. But if you 
have the ability--you shared some thoughts with me in a private 
briefing about efficiency and effectiveness. If.
    You have an ability to vet individuals so that a certain 
small percentage of travelers are able to go through because 
they are vetted, known, doesn't that give more opportunity for 
a greater focus on the overall war on terror, that we have to 
confront those unknown, unexpected, precipitous actors that are 
out there ready to act at any moment?
    Mr. Hawley. That is certainly possible.
    Today, I would highlight that Registered Traveler members 
have only the terrorist watch list check. So today it is just 
that, which I don't consider enough. In the future, it could be 
more, and that would change the equation potentially.
    Ms. Jackson Lee. Say that again. I am sorry.
    Mr. Hawley. The current RT card is only subject to the 
terror watch list check, nothing more. And in the future, it is 
possible, as you mentioned in your opening statement, as did 
Mr. Lungren, that if people give more information, a further 
assessment can be made.
    Today, it is just the watch list check, and the industry 
has declined to go further and do the background check. So 
since, as you know, the issue of government dealing with 
commercial data is off limits for us, we are not going to go 
there.
    And it was something that we discussed with the industry 
earlier on, that they would do the background checks that would 
then allow us to make security benefits. They elected not to do 
that, so I am just left with a terror watch list as the only 
check done with the biometrics.
    I know I fingerprinted somebody who is not a watch list 
member, but that is it.
    Ms. Jackson Lee. My time is far spent. Let me thank you for 
your testimony.
    You are not closing the door on this technology, however?
    Mr. Hawley. No, no. We think it is promising.
    Ms. Jackson Lee. Thank you.
    I am pleased to yield to the distinguished ranking member 5 
minutes.
    Mr. Lungren. Thank you very much.
    Can you tell me what the premium line program is at Dulles?
    Mr. Hawley. I believe that is controlled by the airlines. 
TSA takes over where someone submits themselves for screening; 
and under the current arrangement, that is a function between 
the airline and the airport to do.
    Mr. Lungren. So they are not prohibited from doing that?
    Mr. Hawley. No.
    Mr. Lungren. I am trying to understand, because I have 
supported you on most of the things you have done, and I think 
you are doing a very good job. But I am trying to understand 
whether the support for the RT Program has fallen out at TSA, 
and has there been a reassessment of the RT Program such that 
TSA is no longer supportive of it.
    Mr. Hawley. No. The issue is the ``clean skinned'' suicide 
bomber. And as I just mentioned, the only thing we have is the 
biometric on an individual who is not on a watch list, which 
doesn't make me feel comfortable in the world of the suicide 
bomber, we know they are interested in dealing with modified 
electronics.
    Shoe bombs remain a current concern, and a body carrying 
explosives is a method. So shoes, coats and laptops can't be 
off the screening table just based on an absence of a watch 
list.
    Mr. Lungren. If the technology exists--I saw this kiosk 
over there; I don't know whether it works or not. It looked 
like it worked.
    Let us suppose it does do what it says it does, with GE, 
that identifies the presence of metal in a shoe or the presence 
of some combustible material that you don't want on a plane; 
wouldn't that be something, in addition to the biometric, that 
is beyond what is done to those who go through the regular line 
today?
    Mr. Hawley.Yes, sir, when it works up to standards--and we 
have provided those to GE; they are well aware--we will be 
delighted to accept it. The problem is----
    Mr. Lungren. Are these the standards that came out a couple 
days ago?
    Mr. Hawley. Yes. Although we said, for 6 months we have 
been talking about this and when it reaches the point of being 
able to satisfactorily detect explosives, we will be delighted 
to have it. It is not at that point today.
    Mr. Lungren. But those are--the standards that came out 
this past week are the ones against which the machine will be 
judged?
    Mr. Hawley. The detailed specs are, but up--it has never 
detected explosives to our satisfaction, even close. Now that 
they are getting close, we have refined exactly what the bar is 
and agreed on that.
    Mr. Lungren. And, of course, seeing whether or not the 
presence of metal is in the shoes, correct?
    Mr. Hawley. Sure, there has to be improvement there as 
well.
    Mr. Lungren. If those met your satisfaction, that would be 
something in addition--I mean, that would at least give you the 
same level of review that you are getting by people going 
through the line and taking their shoes off and so forth, 
correct?
    Mr. Hawley. We would be delighted, and we would 
enthusiastically support that.
    Mr. Lungren. Does not the biometric allow you to identify 
the specific person, as opposed to everybody else going through 
that shows some sort of ID?
    Mr. Hawley. It is great identity validation and--yes.
    Mr. Lungren. Correct me if I am wrong, but I understand 
that right now, if you are under 18 years of age, you are not 
required as you go through the regular line to show a picture 
ID; is that correct?
    Mr. Hawley. Yes.
    Mr. Lungren. I was told you are requiring that for people 
going through the Registered Traveler line?
    Mr. Hawley. For underage people, I frankly don't know the 
answer for that, I would be happy to check on it for the 
record.
    Mr. Lungren. If that is so, I would like for the record, if 
you could tell us why that makes sense. It doesn't seem to make 
sense to me, if you don't do it going through the regular line, 
you would do it through the RT line.
    There has been a question in the past as to what benefit 
someone would get from going through the RT line. It seems to 
me that--obviously, I don't have to take my shoes off; if I am 
going through a line that is probably somewhat shorter because 
you have that ability not to take your shoes off and just go 
through this--that is something I would want to do.
    Is there any limitation with respect to people who--vendors 
who are coming up with the RT Program on what they could offer? 
Because we had this debate before, whether they could bundle it 
with other kinds of benefits.
    Mr. Hawley. Yes, sir. In Amsterdam, there is a thriving 
program analogous to it where--it is a wonderful program, and 
they do nothing on the security side; they do a lot of 
innovation elsewhere. We have offered on-line reservations, 
off-site checking, the background checks; there are a number of 
things that are open now today without us changing any of the 
security.
    Mr. Lungren. Would you indulge me for one moment, Madam 
Chair?
    Ms. Jackson Lee. Without objection.
    Mr. Lungren. I would like to ask you one question about the 
background check, because this is very, very important.
    TSA ran into a little bit of trouble a year and a half ago 
when you had outside information that you were not going to 
look at; and then someone said that you did look at it. I don't 
know what that whole argument was about, but the question was, 
if we were going to identify people who are on the watch list 
versus people who have a similar name on the watch list, the 
best way to identify them and exclude those who should not be 
on the list was more information.
    There was some fear--some civil libertarians had, some 
privacy experts had--that if we gave more and more information 
to government, here comes 1984.
    So the issue was, is there a way that you can have a system 
whether you query commercially held data by the private sector. 
Analogously, would you support a program or is there a problem 
with the program where the vendor actually asks for more 
information such that not only is the biometric going to 
qualify that document as being with the person who holds it, 
but also so that you have better information on who that person 
is.
    Mr. Hawley. Yes, sir, that would work.
    Our thought is that we would verify the process by which 
the private sector entity would do a background check, as they 
do in financial services. If we just got a red light, green 
light, and could audit the process, then we would grant 
commensurate security benefit.
    Mr. Lungren. Thank you very much. Thank you for your 
indulgence.
    Ms. Jackson Lee. The gentlelady from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you very much for this hearing, Madam 
Chairman.
    I see at the top of the news almost every day, they are 
reporting the combination of whether economic canceling--it is 
a wreck; I am on the Aviation Sub, it is a wreck. I must say, 
TSA is doing the rest of what needs to happen to drive the 
airlines out of business, sir.
    I want to say to you, straight out, that your testimony--I 
am going to read from the parts of it--gives me real doubt that 
you are being fair to the security needs of the country, that 
you are being fair to the public, that you are being fair to 
the innovators, or that you are being fair to this committee. 
And I want to be just as straight as I think your testimony has 
not been straight with us.
    I believe that the one thing we probably can depend upon, 
given what I know as a member of the Aviation Subcommittee 
about what your TSA personnel are not finding, the one thing 
that I think is a failsafe is failsafe innovation in security 
such as optical scanning.
    Let me tell you why I believe your testimony casts doubt on 
whether or not these people should continue to put any more 
money in that program. A security risk introduced--page 2 of 
your testimony--with RT becomes a risk to every passenger; we 
need layers of security to mitigate the risk of defeating one. 
We want to increase the level of security, not reduce it.
    That says to me RT-plus.
    You go on to say, there is lots of room for innovation that 
doesn't lower security. What are you talking about? Or costs 
the government extra or burdens other passengers, as if you are 
casting aspersions on RT. And you go on, just in case we think 
you are serious about RT, to say, TSA is not waiting for RT. We 
are moving forward to improve the security process for all 
passengers.
    Sir, I have seen what you have done for all passengers, 
using TSA workers as your form of security. And I just have to 
say to you, I don't see anything in this testimony to give this 
committee or the people who are throwing money into innovation 
any hope that you will ever let--particularly given the way you 
have been slow-walking, testing until we announced this 
hearing, that you are ever going to let anything happen here.
    And when you talk about ``clean skinned'' terrorists, the 
``clean skinned'' terrorist that I am most afraid of the public 
for, the ones who can get through the screening that you have 
now while you stand in the way of innovation.
    My question to you, sir, is, why should anybody put another 
dime into this innovation with what your testimony says about 
how you think, to quote you, ``RT isn't ready for prime time,'' 
TSA has decided that taxpayer resources are best applied to 
more critical needs than RT. Sir, that is telling these people 
to go fly a kite. And I think that the notion, given your 
record with what you are doing, that you would say to 
innovation, there is no hope for you, is a total and disgusting 
insult.
    That is my question, and I need you to assure me that this 
is worth their time and money, because if I were in their 
business, I would not read your testimony as saying that it is.
    Mr. Hawley. I think a function of leadership is to make 
decisions and particularly about resources and priorities. And 
in a security world, I listed previously in my testimony a 
number of our priorities and the fact that Registered Traveler 
is not ahead of those other programs in priority is not a slam 
on it. In fact, the program is self-funded, so I am not asking 
for money out----
    Ms. Norton. So what do you want, what would you like them 
to do next?
    Mr. Hawley. I would like to use equipment that works, and 
work with them on----
    Ms. Norton. Why don't you test the equipment they have?
    Mr. Hawley. Ma'am, we have.
    Ms. Norton. You have done no such thing. You are just 
beginning to do real testing of this equipment, of it--you were 
sworn, Mr. Hawley.
    Mr. Hawley. That is correct. That is not an accurate 
statement that we have, in fact, tested the device; and there 
are shortcomings, and we expect them to be corrected. Once they 
are corrected, we would be very pleased to have them be a part 
of the security process.
    But I think the part you quoted me saying is absolutely 
accurate. If we let a vulnerability exist in Registered 
Traveler, that passenger who could be a threat is out there and 
can be a threat to every passenger in the system. So we have to 
have RT not create security vulnerabilities, and we are 
comfortable that RT will mature and not be in the position of 
jeopardizing other passengers.
    Ms. Norton. Mr. Hawley, finally, just could I say, do you 
realize, why this committee is having a hearing and why there 
will probably be a hearing in the Aviation Subcommittee as well 
is precisely because of delays at TSA? If this is supposed to 
be an administration that is for innovation, you are the 
poorest excuse for innovation I have ever seen come before the 
Congress; and shame on you for what your slow-walking of this 
innovation, saying yea or nay, is doing not only to the 
airlines, but to the general public, and I submit to you, your 
candor before this committee.
    Thank you, Madam Chair.
    Ms. Jackson Lee. Gentlewoman's time has expired. Thank you, 
Congresswoman.
    Let me yield 5 minutes to the distinguished gentleman from 
Georgia, Mr. Broun, for his questioning.
    Mr. Broun. Thank you, Madam Chair.
    Mr. Hawley, I just have a couple of quick questions. You 
testified in your opening statement that your RT is not ready 
for prime time. Any idea about how close we are to having some 
idea about when it might be ready?
    Mr. Hawley. A lot depends on the private sector innovation 
and coming forward with attractions for the customer. Those are 
things that are well within the private sector and, as I just 
mentioned, are not priorities for us to divert resources over, 
to figure out how to make it more marketable. So, as additional 
technology is applied and can offset security measures, we are 
pleased to have them in. As I mentioned, we are not in a 
position where we are able to prime the pump, so to speak, to 
help RT at the expense of the general passenger.
    Mr. Broun. Okay. I frequently travel out of three different 
airports. One is my hometown of Athens, Georgia, where RT is 
not going to make any change at all in--when they needed 
expanse for that community.
    I also fly in and out of Billings, Montana; and frequently 
there I run into security lines that may be 30 minutes or 
longer. And Atlanta may be a whole other question. The economic 
status of those communities and those States is quite different 
also.
    I was just wondering, is the cost effectiveness for a 
community and the ease with an RT passenger getting through, is 
this something that a place like Billings, Montana, could put 
into place and something that would ease the pain of having to 
stand in lines in places like that?
    I understand Atlanta will be completely different. I would 
like to hear comments of what you have in mind about that.
    Mr. Hawley. Yes, sir, for Billings, Montana, and Athens, 
Georgia, and small communities you don't need to have a fully 
vetted RT Program, there are other ways to do innovation, if 
you want, at the checkpoint. We are open to that kind of thing. 
The half-hour wait is an exception, and we--by and large, if we 
are staffed up at the time that the rush hits, then it is a 
question of the physical capacity of the checkpoint so our 
responsibility is to fully staff checkpoints in advance of when 
the rush hour is.
    Now, Atlanta is a particular challenge for us and the 
airport director has been in touch with me, and we have tried a 
number things that bring the lines down low. They have a 
particular--one checkpoint situation that, if it gets behind, 
is a big problem. So we now have committed to open those lanes 
in the morning in time to process the maximum through the 
physical--outlay.
    Mr. Broun. Thank you, Mr. Hawley.
    Ms. Jackson Lee. I thank the gentleman for his questions. 
Do you yield back?
    Mr. Broun. I yield back.
    Ms. Jackson Lee. Now may I recognize the distinguished 
young lady from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman. And thank you for 
holding this hearing, which I think is an important one.
    Every Monday I walk by the RT Program in the San Jose 
Airport, and because I do--and sometimes I get there way 
early--I checked it out, and I didn't actually join the program 
yet. It seemed to me there was a lot of smartness about it. You 
have 10 fingerprints, something that many of us have been 
suggested for a long, long time; and I was--one of the things 
we know in biometrics is that a positive ID, there is no faking 
it.
    And so I was really surprised when I learned that the TSA 
is, in addition to the biometrics, requiring a photo ID on some 
government card. And it seemed to me that the TSA was saying 
that, you know, your student body card is a more reliable 
indicator of identity than 10 fingerprints and an iris scan. Is 
that the Agency's position?
    Mr. Hawley. We do require a government-issued photo ID and 
that is, as I mentioned in the previous question, in case the 
power goes out.
    Ms. Lofgren. I don't want to be--as you--I like you very 
much and think you have done some good things at the Agency, 
but that is a preposterous thing to say. If the power goes out, 
everything goes out.
    Mr. Hawley. In Orlando, the power went out and it was 
restored. It is something that happens, and there are different 
configurations of lanes so, you don't always have a chain of 
custody between when you assess the biometric and----
    Ms. Lofgren. What they have right now--and we looked at 
it--is the biometrics. It prints out a receipt. I don't want to 
get into the technology, that is a whole different issue, I 
just want to get into the positive ID and identity questions.
    You identify this person, you get a receipt, there is a 
picture of the person on the right, and they give that with--
there has never been, that I am aware of, a proposal not to put 
your computer through the X-ray machine or anything like that. 
It is a positive ID. I mean, how--your fishing license doesn't 
really tell you anything compared to a positive ID, does it?
    Mr. Hawley. It is a matter of additional security, of 
having another credential with a picture on it.
    Ms. Lofgren. The thing that bothers me, if I may, is, the 
people that have not been back-grounded, people who just show 
up off the street in a line, have to show less ID than the 
people who have paid a fee, given their biometrics, had their 
whole history checked against whatever watch list the 
government wants. That seems ridiculous.
    Mr. Hawley. Well, I draw your attention to Glasgow, 
Scotland, where those doctors would have cleared the watch list 
test----
    Ms. Lofgren. Standing on--without any background in 
Washington.
    Mr. Hawley. It just makes the point that knowing that 
somebody's biometric is the same as the person traveling does 
not give you a risk basis on knowing whether that person----
    Ms. Lofgren. That leads me to a bigger question, because in 
the briefing we had--I was not able to go, but I had a staffer 
with a security clearance who did, who advises that we were 
told there were five or six watch lists that were checked.
    I wasn't there. But even so, we spent a lot of money on 
these watch lists. We are using it for passenger lists from 
Europe. We are running--I mean, my husband can't get his 
boarding pass from the kiosk because there is probably some IRA 
terrorist with the same name.
    We are saying that list matters except when it is being 
used by the Registered Travelers?
    Mr. Hawley. No. I think does matter, but it is not 
sufficient alone. That is why we have to have the other layers. 
And that is why the concern of ``clean skinned'' terrorists; 
and the National Intelligence Estimate was very clear in saying 
``clean skinned'' terrorists are a problem, and we have to 
account for that in our security.
    Ms. Lofgren. I think you are a nice person, but what you 
are saying does not logically add up.
    If the bottom line is that the people who have had their 
biometrics and personal history checked, they were checked for 
fraudulent documents, have to give more ID than somebody who 
wanders in off the street, there is something wrong with this 
picture.
    Mr. Hawley. The key point is having the background check, 
and under the Registered Travel program there is no background 
check; it is a check against the watch list. And that is a very 
big difference.
    I think the logic that was articulated earlier makes sense. 
If there is a background check, you could give security 
benefit, but today it is simply, has the government identified 
you as a terrorist? If yes, then obviously we go pick you up. 
If you are not identified as a terrorist, then, you know----
    Ms. Lofgren. My time has expired, but I think--this doesn't 
add up to me. And I would like to note also that this whole 
program is paid for by the participants, the passengers, they 
pay a fee. It is not the taxpayers paying.
    I thought it was important to note that, and I yield back 
since my time has expired.
    Ms. Jackson Lee. Thank the gentlelady. Her time has 
expired.
    I consent to yield myself for 1-1/2 minutes.
    Quickly, Mr. Hawley, we are going to bring up the other 
witnesses, but let me ask you, do you believe in this 
technology? Do you believe it is viable, it is workable, with, 
a view in your mind, improvements?
    Mr. Hawley. The technology is workable, and when it 
performs in a machine at the checkpoint, we will welcome it.
    Ms. Jackson Lee. As these standards have been issued, as my 
colleagues have indicated, and this company--the companies or 
the research--is going to move to utilize these standards, 
would that make it a better tool in Homeland Security?
    Mr. Hawley. Yes, ma'am.
    Ms. Jackson Lee. Is your concern that--I understand what 
you are saying is that you don't consider the watch list as 
sufficient vetting and, therefore, that does not equate to you 
as a sufficient background check? Is that my understanding?
    Mr. Hawley. To change the security regime.
    Ms. Jackson Lee. Because a person not on a watch list, such 
as doctors would not be, if you will, caught on that watch 
list?
    Mr. Hawley. That is correct.
    Ms. Jackson Lee. So, therefore, we have a meeting of the 
minds, I believe, have an opportunity with TSA to look at an 
improved background check scheme, if you will, to look at the 
improved technology and have you leave the table with the idea 
that we should not ignore this kind of technology that may be 
not only good for convenience, which I would like to subrogate 
to security, but that it may work security-wise with all of the 
elements in place.
    Mr. Hawley. Yes, ma'am.
    Ms. Jackson Lee. Let me thank the witness for his 
testimony. And I appreciate his service.
    I look forward to working with you and ask the other 
witnesses to come before the committee.
    Ms. Lofgren. Madam Chairwoman, while the next witnesses are 
coming forward----
    Ms. Jackson Lee. The gentlewoman is recognized.
    Ms. Lofgren. Unanimous consent to place in the record the 
correspondence between myself, Mr. Thompson and the agency on 
this subject.
    Ms. Jackson Lee. Without objection.
    We welcome the witnesses to the second panel and begin by 
introducing you and thanking you for your patience.
    Our first witness will be Mr. Tom Conaway, Managing 
Partner, Homeland Security, Unisys Corporation. In this 
capacity, he spearheads efforts to position Unisys as an end-
to-end services provider and plays a lead role in Unisys' 
homeland security strategy. Tom has responsibility for managing 
the Unisys engagement with the TSA, an unprecedented multiyear 
task order to build an advanced information technology 
infrastructure. Initially, it will help to secure the safe 
transport of passengers and cargo throughout the United States.
    Our second witness is Steve Brill, Chairman and CEO, CLEAR, 
Verified Identity Pass, Inc. Mr. Brill is the founder and CEO 
of Verified Identity Pass, Inc. and the creator of the CLEAR 
Registered Traveler Program. CLEAR, with over 53,000 members, 
is the largest privately run, registered traveler program 
operating at U.S. courts.
    Our final witness is Mr. Bill Connors, Executive Director 
of the National Business Travel Association, NBTA.
    We welcome you and we thank you. And in the spirit of full 
disclosure, Mr. Brill attended the law school of my spouse. And 
might I celebrate what a great law school it is? So let me.
    Mr. Brill. You and I went to college together.
    Ms. Jackson Lee. Might I ask the witnesses if you each will 
provide your statement in its entirety and summarize, we will 
acknowledge that will be accepted into the record. And we would 
greatly appreciate your provocative and abbreviated testimony 
so the members will be able to ask questions.
    I am not sure when the next votes will be coming.

STATEMENT OF TOM CONAWAY, MANAGING PARTNER, HOMELAND SECURITY, 
                       UNISYS CORPORATION

    Mr. Conaway. Good afternoon, Chairwoman Jackson Lee, 
Ranking Member Lungren and the distinguished members of the 
subcommittee. I am Tom Conaway, Managing Partner for Homeland 
Security at Unisys.
    In summary, Unisys has a long history of working technology 
solution programs for public and private sector customers, 
including several very large, biometrically based ID management 
programs around the world. Here at home we have been working 
for the Department of Homeland Security from the beginning, and 
especially the Transportation Security Administration, on 
programs such as US-VISIT, SBI.net, missing critical 
applications at CDPN and henceforth.
    For the Transportation Security Administration, we were one 
of the two original contractors who worked on the pilot 
program. We ran three of the five airports that were used to 
test different technologies and techniques for putting people 
through the process. The things we learned during that pilot 
period laid the groundwork for what is being rolled out today. 
Case in point: At that time really there were no biometrically 
based programs in existence in the U.S.; there really wasn't 
any idea how society would respond to something like that.
    We helped move that from the realm of science fiction to 
reality today, going from the pilot phase into the current 
pilot phase, because there still is a pilot phase, given that I 
think the idea was to do 20 airports.
    Currently, we are now live and operational at the Reno/
Tahoe Airport, so we are one of the two actual operating 
providers of the Registered Traveler. There have been some 
growing pains as this has rolled out. Some of those growing 
pains are similar to what would be seen at any roll-out for a 
new program, but there are some additional challenges that have 
to be faced, and you have gone through several of them today. I 
won't reiterate that, but given that, under TSA's leadership we 
have formed a public-private partnership and look forward to 
working with TSA and Registered Traveler and their operability 
consortium to work through those and implement them.
    Madam Chairwoman, that is a summary of my statement and I 
would be happy to answer any questions.
    Ms. Jackson Lee. Mr. Conaway, I think you will be called 
back as a witness over and over again. Thank you for your 
testimony.
    [The statement of Mr. Conaway follows:]

                Prepared Statement of Thomas M. Conaway

    Good afternoon Chairwoman Jackson-Lee, Ranking Member Lungren, and 
other distinguished Members of the Subcommittee. I am Tom Conaway, 
Managing Partner for Homeland Security at Unisys Corporation. We thank 
you for inviting Unisys to participate in this hearing focusing on the 
implementation of the Registered Traveler Program.
    Unisys is a global corporation of 37,000 employees in over 100 
countries providing information systems solutions and services to a 
wide range of private and public sector customers. We are a publicly-
traded corporation with annual revenues in excess of $5B. We are a U.S. 
company with our headquarters in Bluebell, Pennsylvania. And we have a 
long and proud history of serving our federal government.
    Around the world and here at home, Unisys is a leading provider of 
integrated security solutions--many of which incorporate advanced 
biometric and identity management technologies. For example, we 
delivered a system to the Chilean Border Police that screens 
individuals arriving at airports against Interpol watch-lists based on 
facial recognition. We delivered a national identification card for 
Malaysia that employs fingerprint identification. Recently, we have 
been tasked by Australia, New Zealand, and Canada to test a variety of 
technologies to control land, sea, and air borders.
    Here at home, we have worked on a number of initiatives aimed at 
securing our homeland and have worked directly with the Department of 
Homeland Security since its creation. As examples, we designed, 
developed and implemented in record time the initial exit-tracking 
capability for the US VISIT program. At Customs and Border Protection, 
we support the development and maintenance of mission critical software 
applications like the Free and Secure Trade System and the Automated 
Targeting System. We are also working on the Secure Border Initiative 
as a member of the Boeing-led SBInet team. At the Transportation 
Security Administration, Unisys currently provides a wide range of 
information technology operations and maintenance support. 
Additionally, we have also supported such programs as the Airport 
Access Control Pilot Projects and, of course, the Registered Traveler 
Program.
    Unisys is proud to have worked with the TSA on Registered Traveler 
Program from the beginning. In June 2004, TSA selected Unisys to 
develop and operate three of the initial five pilot sites to 
demonstrate the utility of the Registered Traveler concept. At those 
sites, Unisys tested and analyzed various combinations of technology 
and techniques. The results gained from those tests supported the 
ultimate technology decisions TSA made for the program that is being 
deployed today.
    One of the biggest unknowns at the time was the question of whether 
or not the traveling public would accept the program. The concept of 
using a biometric--other than a photograph--to verify the identity of 
an individual seemed more science fiction than reality. Even though 
there was initial skepticism, survey results of program participants 
indicated widespread acceptance and support of the concept. So much so, 
in fact, that TSA extended the program well beyond the originally 
planned performance period of ninety (90) days per airport.
    As the TSA moved forward with the program, it became obvious that, 
even though it was popular with participants, it would not be 
economically feasible to implement a national roll-out using federal 
dollars. Therefore, a commercial model was created and piloted to 
demonstrate the viability of a different economic model that was based 
on subscription fees rather than a central federal budget.
    The TSA took the lessons learned from these activities and used 
them to craft the Registered Program pilot phase that is being deployed 
today. Under TSA's leadership, what has emerged is a public-private 
partnership with TSA retaining overall program oversight and the 
Registered Traveler Interoperability Consortium (RTIC) providing a 
central voice for airport and industry participation. Working together, 
this partnership has resulted in a technical interoperability 
specification that requires all certified RT vendors to produce and 
issue credentials and readers that allow program participants to travel 
seamlessly between participating airports, regardless of the source of 
enrollment. This is similar to you being able to use your ATM card in 
any teller machine, regardless of the brand of your home bank.
    Much progress has been made and today the RT program is operating 
in at least six airports, with more on the way. The Unisys offering, 
rtGO, has been operational at the Reno-Tahoe airport since the end of 
May, and our customers are anxious to see the program expand.
    Yet, with all this progress, several challenges remain. Some of 
these are routine ``growing pains'' associated with the roll-out of any 
new program. Others will require more thought and effort to resolve. 
This latter category includes the concepts such as: an interoperability 
transfer fee to be paid between the RT provider companies; the 
introduction of new screening technologies into the passenger screening 
lane; and the provision of benefits--such as not having to remove a 
laptop from a carry-on, or being able to leave shoes and jacket on--
from the TSA.
    Even though these challenges exist, the history of the program has 
shown that we will work through them. To that end, Unisys looks forward 
to working with the TSA, the RTIC, and the other RT providers to make 
this public-private partnership a reality.

    Ms. Jackson Lee. Mr. Brill, welcome.

    STATEMENT OF STEVEN BRILL, CHAIRMAN AND CHIEF EXECUTIVE 
          OFFICER, CLEAR/VERIFIED IDENTITY PASS, INC.

    Mr. Brill. I am glad to be here. I represent CLEAR, which 
operates 11 of the 12 Registered Traveler airports.
    Our airports and our 53,000 members love RT, an astounding 
90 percent of those who joined in Orlando, where we started 2 
years ago, have renewed their annual $99 subscriptions. We 
process people faster; it takes them half a minute to 4 minutes 
to go through security. Yet, in Orlando, we process 15 percent 
of the people using 6 percent of the lanes.
    You know what? I will take this statement and put it over 
here because it doesn't matter.
    What matters is what you have pinpointed, Madam Chairwoman, 
and that is security, that is the first thing that matters. I 
think Kip Hawley is a terrific public servant. I took a lot of 
grief from journalists a while back from writing very good 
things about TSA and about Mr. Hawley, but he is dead wrong 
about this program. This program is a security program.
    Nothing Mr. Connors says, although I respect about how it 
provides more convenience for businessmen, more efficiency in 
the business world, none of that matters if it is not a 
security program.
    Mr. Brill. This is a security program, and allow me to 
explain it. First of all, we have gone through thousands of 
pages of audits, self-audits, TSA audits for every airport 
where we have launched. We have had to adhere to super 
encryption systems, we have had to have two attendants enroll 
each member, a requirement that DHS does not even use for the 
credentialing of its own employees.
    After all of those security hoops, which cost us millions 
of dollars, what do we have for it? We have nothing in the way 
of security benefits. But, you know what, we are not asking for 
anything. What we are asking for is what Congressman Norton 
said, is that in return for going through all those security 
hoops, for providing better biometric identification, better 
background screening than is done for freight workers, who Mr. 
Markey is told all the time are so well background screened 
that you don't need a real secure freight program.
    In return for going through better screening than airport 
workers go through, than freight workers go through, than the 
RTIP program does, we get no security benefits. But no one has 
asked for it. What we have asked for is that the equipment that 
we have paid for, that we have developed with GE and other 
equipment that other competitors develop, that that equipment 
be tested quickly.
    In February of 2006, I sat with Mr. Hawley and someone from 
GE and we were told that equipment would be put on a fast 
track. Now there are some of you who think that for TSA that is 
a fast track. I wrote a book about an organization that was 
launched in 2002 where fast track really was a fast track, 
where people had a can-do attitude and they got things done.
    They have not done that with Registered Traveler. I think 
there is a reason for this. The office that oversees Registered 
Traveler is the office that oversees the RTIP program and the 
Secure Flight Program. There is a difference. We are a private 
sector program. We are not contractors. My friend Mr. Conaway 
here obviously has to be nice to TSA, he has multiple contracts 
with them. I don't.
    I am not here seeking money from the government, I am here 
asking the government to get out of the way, to do its security 
job to supervise a security program so that we can make this 
country more secure and, yes, so that our business will be 
profitable.
    We estimate and we know that if this program rolls out 30 
to 50 percent of the people moving through a busy airport on a 
weekday morning will be pre-screened, will have their 
biometrics taken, will be screened, will be going through 
equipment that will test their shoes for explosives and test 
their fingers for residue of explosives at no cost to the 
taxpayer, and we think taking 30 to 50 percent of the hay out 
of the haystack is a security program.
    We think that the bureaucracy at TSA has preferred to 
dismiss it and say it is not a security program, it is just 
about convenience. You use the convenience to lure people in so 
that we have a business and so that TSA suddenly is screening 
30 to 50 percent of the people with real biometric 
credentialing, with better equipment. I think that is a 
security program.
    I am not in the business of providing more convenient 
parking for people, or anything else. I had a vision that we 
could start a voluntary credentialing industry. The President 
put a white paper out almost 2 years ago today, actually 2 
years ago--5 years ago yesterday asking for the private sector 
to innovate and join the fight for homeland security. That is 
what this voluntary credentialing industry is about. It is not 
about providing convenience, it is about offering convenience 
in return for getting and maximizing security.
    We need your help to bring that promise home and, yes, it 
is true that a 12 to 18-year old who is a member----
    [The statement of Mr. Brill follows:]

                   Prepared Statement of Steven Brill

    Madame Chairwoman, members of the Committee. I'm delighted to be 
here today to represent Clear, which now operates the Registered 
Traveler program, or is about to, in 11 of the 12 RT airports. We 
currently operate Registered Traveler programs in Orlando, San Jose, 
Cincinnati, Indianapolis, Newark and John F. Kennedy in New York.
    By the Fall, we will be operating programs in San Francisco, 
LaGuardia (New York), Albany (New York), Little Rock, and Westchester.
    And Dulles, Reagan, Denver, Atlanta, and Miami are among the major 
domestic airports which have announced plans to launch Registered 
Traveler (RT) this year.
    The airlines initially had a wait-and-see attitude. But we now have 
sponsorship and marketing partnerships with British Airways, Air 
France, Virgin Atlantic and--our first domestic air carrier--AirTran 
Airways, with other domestic and international carriers about to join.
    Word of the advantages of this common sense program has even spread 
abroad. We are working with governments, airports, and airlines in 
Canada, the United Kingdom and Europe to launch Registered Traveler.
    The logic of the program and the process is simple: If people 
volunteer to provide some biographical information about themselves so 
they can be screened in advance, the availability of cost-efficient 
biometric technology now enables them to be issued a card that only 
they can use in order to expedite their process through security. 
Moreover, the membership fees they pay should also enable their 
Registered Traveler service provider to deploy enhanced security 
equipment at the RT lanes which should aid in allowing members an 
expedited security process. The prime current example is a shoe scanner 
that we have co-invented and developed with GE that scans shoes so that 
our members will not have to remove them as they pass through the TSA 
checkpoint.
    But this is both a good news and a bad news story, and we need your 
help to correct the bad news.
    The Good News_More Than 50,000 Members With Millions on the Way, 
Better Security, Better Equipment, Faster Lanes for All, and 30%-50% of 
the ``Hay'' Removed From the Haystack
    Our 53,000 members love the program. They appreciate that the 
technology works and that it takes them a half minute to four minutes 
to get through any lane at any of our airports. And they appreciate our 
trailblazing privacy policies, which include independent public privacy 
audits of our system and what I think is the nation's first identity 
theft warranty. More than 90% of those who joined in Orlando--where we 
started two years ago last week--have renewed their annual 99 dollar 
subscriptions. In my former life as a magazine editor and publisher, a 
90% renewal rate would have been heaven.
    At the pace we are now taking enrollments, and with those renewal 
rates, we could get to four million members domestically within three 
years, if--and this is the big ``if,'' as I will explain--the 
bureaucracy of the Transportation Security Administration (TSA) stops 
trying, for reasons I can only speculate about, to stunt the program.
    Most important, RT improves aviation security. The thousands of 
road warriors who go through our lanes every day are the only people 
who have been pre-screened by TSA and whose identities are absolutely 
assured by their use of biometric cards at our verification kiosks. And 
our estimate is that once RT is allowed to reach its potential and is 
rolled out over the next 18 to 24 months, 30--50% of the travelers 
moving through a big airport on a weekday morning will be pre-screened, 
biometrically-verified RT members. That's because RT members travel so 
frequently that they make up an enormously disproportionate share of 
the flying population, and it's because we project 50,000 to 200,000 
members at each airport where we launch. That takes a lot of hay out of 
TSA's proverbial security haystack--all at zero cost to the taxpayer.
    Think about that: a voluntary private sector program that achieves 
a third to half of one of TSA's basic missions at no taxpayer cost.
    Airports with RT are also more efficient for all travelers. In 
Orlando, we regularly process 10-15% of the passengers moving through 
the airport using just six percent of the TSA checkpoint lanes. That 
means that not only does Clear give its members a fast, predictable 
experience when they arrive at airport security, but it also means that 
the lines for everyone else are shorter because our lanes process more 
than their share of travelers.
    The analogy here is electronic tolling. As long as the electronic 
lanes and non-electronic lanes are apportioned correctly, everyone now 
goes over the Triboro Bridge and the Golden Gate Bride faster than 
before electronic tolling was invented.
    That's why every airport that has implemented the program loves it. 
And our customers love it so much that we're using quotes from them in 
a new national advertising campaign.
    All of this would seem to be a good deal for TSA, in addition to 
air travelers and airports. And the deal gets better. As you know, 
because you have had an opportunity to see it demonstrated, we have 
financed new technology at the RT lanes that screens shoes for 
explosives as well as dangerous metal and that even tests for traces of 
explosive residue on people's fingers, thereby making it possible for 
them to leave on their outer garments. If TSA allows this innovative 
technology to be deployed at our lanes, TSA would then get to see the 
technology working in the best possible testing environment--where 
travelers have already been vetted--and then decide whether to buy it 
for all lanes. The private sector will have created the market for the 
technology and paid the development costs as well. We think that's a 
good deal for TSA and the country.
    The Bad News_TSA's Undermining of the Program
    Yet, despite these benefits--voluntary pre-screening and identity 
verification, free development of technology, faster lanes--TSA has not 
been treating RT like a good deal. Rather the agency has allowed the 
program to happen grudgingly, behind schedule, and only then because, 
frankly, you in the Congress and we as entrepreneurs have pushed it.
    TSA Administrator Hawley and Deputy DHS Secretary Michael Jackson--
both of whom I have publicly praised for their roles in getting TSA up 
and running so quickly in 2002--have supported RT rhetorically, and 
Secretary Chertoff has made intelligent risk management a key mission 
of DHS. But, for whatever reason, TSA and DHS have not allowed RT to 
become what it can and should become. To the contrary, it seems that at 
almost every turn decisions that threaten to undermine RT have been 
made by the TSA Threat Assessment and Credentialing Office. That's the 
office also responsible for TWIC and Secure Flight. Perhaps the folks 
in charge there don't want to see a private sector program flourish 
while those government programs remain unfulfilled.

    To give you the big picture, TSA now requires that we:
        <bullet> Write and submit separate System Security Plans 
        totaling 317 pages per airport;
        <bullet> Prepare and submit separate 305-page self-assessments 
        of how we comply with hundreds of pages of TSA standards and 
        specifications;
        <bullet> Complete an Independent Pre-Implementation Audit of 
        Compliance from a Big-Four firm with relevant American 
        Institute of Certified Public Accountants standards for each 
        airport that costs over $200,000 and audits approximately 1,000 
        control points;
        <bullet> Adhere to hyper-secure specifications for card 
        encryption and data transmission;
        <bullet> And adhere to the unprecedented (in any similar 
        federal identity credentialing program, including the 
        credential of DHS employees) requirement of not one but two 
        security-screened attendants to complete each enrollment in 
        order to protect against collusion.
    It all adds up to an enrollment, card encryption and security 
system that is more stringent not only than that used for any airport 
workers--who typically don't even have biometric cards--but more 
stringent than that used for the identity documents issued to members 
of the Pentagon or Department of Homeland Security.
    All of that security makes sense--and we applaud it--as a condition 
of RT members getting some relief from the standard airport security 
process. That certainly was Congress's intent--because that's smart 
risk management. But here's the catch: Our members now enjoy an 
expedited process only because of the concierges we use at our lanes to 
help them place their necessary items into the bins and then retrieve 
them after the screening is completed. That has speeded throughputs by 
30%. But, as of today, RT members get nothing in the way of an amended 
security process in return for the security threat assessment, 
biometric verification, and thousands of man hours and audit pages and 
dollars of security hoops that we jump through.
    In fact, the opposite is true.
    The ``Double ID'' Rule
    Beginning last fall, TSA suddenly required that RT members using 
the RT line show a picture ID and their RT card right before entering 
the line. These are the same RT cards that, when put into the RT kiosk, 
will use the traveler's fingerprint or iris scan to biometrically match 
the user to the data embedded in the card. That's right. RT members are 
the only travelers who must present TWO forms of identification. When 
Mr. Hawley testifies, he may give you one or more of the many different 
explanations for this that he has given us over the past year. I would 
take the time here to rebut all of them, but the explanations, for what 
is obviously a mistaken directive that no one now wants to admit was a 
simple mistake, seem to change every week.
    So, let me just address two of TSA's purported explanations, 
including their most recent one. In letters last month, Mr. Hawley 
maintained that a photo ID must be checked to enter the RT line because 
the configuration of the RT verification kiosk and the TSA security 
checkpoint at some airports could ``result in lack of control over 
ingress to both screening and the secure area.'' TSA completely misses 
the mark. At every airport that features the RT program, the RT service 
provider and airport work hand-in-hand with the TSA Federal Security 
Director (whose approval is required) to satisfy the FSD that security 
and access control is in no way compromised as a result of the 
configuration of the RT verification lane. That is the appropriate and, 
indeed, the only way to ensure ``control over ingress.''
    By contrast, requiring that an RT member show a photo ID to enter 
the RT line (where s/he is then immediately biometrically verified) has 
absolutely nothing to do with controlling access to the area between 
the RT verification kiosk and the TSA screening checkpoint. This is 
simply apples and oranges. Moreover, this ignores the fact that our 
kiosk issues a receipt with the member's digital photo printed on it, 
which the TSA personnel can inspect at the entrance to the metal 
detector. That photo is produced when the member's biometric is 
presented--which makes it far more secure than some fishing license 
that non-RT members can present back at the entrance to the lane. This 
also ignores the fact that Mr. Hawley supposedly empowered local 
Federal Security Directors to approve all RT operations plans at each 
airport, and none raised this line of site issue (though they might 
now, given that the boss has conjured it up). Put simply, this argument 
is plainly absurd.
    And, earlier this year, TSA explained that our members had to 
present a photo ID in addition to the RT card, because our RT 
verification kiosks wouldn't work if there were a power outage in the 
airport. Of course, if there were a power outage in the airport, in all 
likelihood nobody would be going through the RT line or the TSA 
security checkpoint, because TSA's magnetometers and x-ray machines 
wouldn't be working, so there were be no opportunity for our members to 
show their photo IDs to anyone. In short, it's another TSA explanation 
that makes no sense.
    Pilot projects are supposed to be for research and testing. Our 
Orlando program, started two years ago, began as a pilot project. 
During that time, in which 300,000 members passed through our lanes, 
there was not a single incident in which the fact that our members did 
not have to present an additional photo ID ever caused a problem. Not 
one in 300,000.
    The result of the implementation of the double ID rule has been 
predictable and unfortunate. Members have called and written Clear with 
complaints about the obvious illogic of this new rule, which requires 
them to present more in the way of identification credentials than 
other travelers. Clear has been at a loss to answer these complaints, 
because there really is no answer. To some customers, whose emails I 
read and whose calls I take every day, this makes the program, or TSA, 
or both a laughingstock. I really have no good answer for them.
    In response, TSA has informed Clear that it will consider a 
solution in which photographs appear on the RT cards. As an initial 
matter, Clear questions the wisdom of this solution. It is just not 
smart security. One of the advantages of a biometric card is that 
security personnel become trained to ``trust'' a biometric match only. 
If a photograph is added to the card, it increases the possibility that 
a person for whom RT privileges have been revoked (based on a new 
assessment of the person's threat risk, for example) will nonetheless 
be able to convince security personnel to let them through by blaming 
the negative results of the biometric comparison on some sort of 
equipment defect. In any event, TSA has stated that it will not even 
consider the alternative of a photo appearing on the RT card unless all 
members of the industry unanimously agree to make it the standard for 
all RT cards, thereby giving our competitors--who are lagging behind 
us--a way to stop our progress while they catch up.
    That is an abdication of TSA's regulatory role. TSA did not ask for 
industry unanimity when it unilaterally imposed the rule that requires 
two attendants for every enrollment. Why now, except to stiff arm this 
program? If TSA determines that placing photographs on RT cards is the 
proper solution, because it is better security, TSA should be the one 
to make that decision; and if it does, Clear will abide by it. But 
Clear's compliance with the rules should not be subject to the 
unilateral veto power of every other vendor--especially those that have 
expressed tentative interest by declaring themselves part of the 
``industry group'' yet are not serious enough to commit significant 
resources to enrolling participants or operating lanes at airports. TSA 
should dispense with the photo identification requirement for RT 
participants or promptly announce that a photograph on the RT card will 
satisfy such a requirement.
    None of TSA's explanations for the double ID requirement makes 
sense to any TSA security official I have ever spoken with outside the 
Credentialing office. I should add that when I first raised this issue 
with Mr. Hawley, he, too, said it seemed ridiculous and would look into 
it. But in a pattern that has now been often repeated, when Mr. Hawley 
consults his staff about RT, his mind always seems to change.
    The Saga of The Shoe Scanner_or How Not To Encourage Private Sector 
Investment in Better Security
    My second specific has to do with the shoe scanner I mentioned 
earlier.
    In February of 2006, TSA invited us and General Electric, with whom 
we co-invented this enhanced RT security kiosk and which manufactures 
it, to let TSA test it for use at our lanes--and at the lanes of any of 
our competitors, to whom GE is also committed to supplying it. In 
return, RT members would not have to remove shoes once the technology 
was installed. We were told it would be put on a ``fast track.'' Then 
the Transportation Security Lab refused to accept it for testing. That 
standoff lasted until May 2006, and only ended after Mr. Hawley made 
multiple requests that the lab test it.
    Testing then proceeded there, and then on the ground at our lanes 
in Orlando. In November 2006, after TSA had extensively tested the 
equipment, TSA provided what appeared to be exactly the clear path for 
the implementation of these kinds of industry-funded innovations that 
is necessary for this type of public-private partnership: Mr. Hawley 
told Clear that once his Chief Technology Officer (CTO) had briefed the 
relevant local Federal Security Director (FSD) on the benefits of the 
shoe scanner, and once the FSD agreed to implement the scanner, it 
would be implemented at that FSD's airport.
    Thus, in December 2006 conference calls with the CTO and the FSDs, 
the implementation was scheduled for January 2007. And in December 
2006, TSA told the Wall Street Journal that the shoe scanner was 
approved for deployment and that people who went through the scan and 
passed the test and got a receipt--with their digital photograph on 
it--would then pass through without removing shoes. In a conference 
call with our team and local TSA officials in Orlando, the CTO 
confirmed that the equipment had tested well and was approved.
    But three weeks later, on the eve of our national roll out and with 
no explanation, TSA rescinded this decision, although they allowed the 
shoe scanner to stay on in Orlando. The sole explanation we got was 
that a new CTO wanted to conduct a quick review of the prior testing.
    In February of 2007 the RT program director told me in an email 
that the review and some new testing that had to be done would be 
finished by February 22 and that deployment would likely follow soon 
thereafter. It turned out, however, that no re-testing was being done 
at all, or at least that is what we are now being told.
    It's now July and as of today TSA is still not re-testing the 
equipment. That's 15 months since it was put on the ``fast track'' by 
TSA. It would not surprise me if when he testifies today Mr. Hawley 
announces, finally, that the equipment is being tested again. I guess 
that's why Congressional oversight is so important. But that will only 
raise more questions: What is the time line for the tests? What is the 
standard going to be? We and GE believe, and common sense dictates, 
that the standard ought to be not whether the shoe scanner can detect 
any molecule of any potentially dangerous element but whether it 
provides the same or better protection than that provided by putting a 
shoe through an X-Ray. Mr. Hawley has said that will be the standard, 
but I'm skeptical as to what the bureaucrats will do.
    Interestingly, last month, TSA finally proposed a Memorandum of 
Understanding with GE to govern the testing of the new equipment, but 
then refused to agree to any meaningful terms. By way of example, TSA 
refused to provide any timeline for its testing and refused even to 
include a watered-down commitment that, if the new equipment satisfied 
all of the standards established by TSA, TSA staff would make a non-
binding recommendation to the TSA Administrator that he allow the new 
equipment to be deployed with relevant security benefits.
    The loss of public credibility and industry credibility has been 
incalculable. And incredibly, TSA has now been telling those in 
Congress or the press who inquire that there were ``problems'' with the 
GE equipment, an explanation that contradicts their own announcement to 
the press last December, contradicts everything GE has been told, 
completely contradicts the TSA email of February, 2007, and is just 
plain unfair to GE. How would they know about problems if they have not 
been testing it?
     Things have now reached to the point where GE has formally 
notified us that they are about to cancel this project because neither 
we nor they can justify the investments in it, and GE, as a large 
public company, can't keep spending money based on hope the way I can.
     I am not comfortable saying all of this about TSA. Quite the 
contrary. As a journalist writing a column for Newsweek while I was 
writing my book, and then after my book came out, I was criticized by 
lots of colleagues for praising the people who launched TSA in the 
first year--including Mr. Hawley and Deputy Secretary Jackson. But I 
think I was right: they did do a great job getting TSA up and running 
and taking over the lanes on time. The question is what has happened 
since to an agency that, when I was watching it, had no bureaucracy but 
instead had manically-dedicated ``Go-Teams'' run by Mr. Hawley. Teams 
that stood at meetings because the furniture hadn't yet been 
purchased--and then went out to Staples to purchase it themselves when 
the paperwork to buy it got bogged down.
    In one passage of the book, in describing how dedicated and 
unbureaucratic the TSA pioneers were, I wrote: ``TSA-time was something 
akin to dog years only more so: in terms of how fast they had to move, 
a day is like a month and a month is like a year.'' Although I still 
have no doubts about Mr. Hawley's dedication, I keep thinking of that 
paragraph when I think about the continuing saga of the GE shoe 
scanner. And I know that the Go-Teams would have laughed that Double ID 
requirement right out of their makeshift conference room.
    I also know that one of the first things Mr. Hawley does every day 
is go over current intelligence that provides a fresh reminder that 
there really are terrorists out there trying every day to kill us, and 
that some still want to use our aviation system to do so. I do not 
doubt his sincerity or underestimate the burden that he and all of his 
colleagues at TSA face. I just happen to believe that Registered 
Traveler and voluntary credentialing can be a significant part of the 
solution and that this program is consistent with--indeed the 
embodiment of--the intelligent risk management that Secretary Chertoff 
has declared is a core element of DHS's mission.

    The ``Selectee'' Override_Now You See It, Now You Don't
    My third specific has to do with a key feature of the Orlando pilot 
program that is no more. During the Orlando pilot, TSA authorized a 
participant's RT status to exempt them from automated selection for 
secondary screening. (Of course, TSA retained the right to select any 
traveler randomly at any time for secondary screening.) The override 
was logical because the perpetual and real-time vetting provided for in 
the TSA-issued RT specifications, and to which registered travelers are 
subject, screens out the very people for whom this ``selectee'' status 
is designed. The automated selection criteria are based on 
generalizations about passenger risk that do not apply to the subset of 
travelers who have been pre-screened during the enrollment process. 
Excluding RT participants from this automatic selectee status allows 
TSA to focus on a smaller group of potentially risky travelers. TSA has 
now eliminated this common-sense feature.
    TSA has told Clear informally that it has done away with the 
override because, for example, it limits the ability to designate all 
passengers on a selected high-risk flight as selectees subject to 
secondary screening. However, there is a much less blunt instrument 
which would address this concern while preserving the legitimate time-
saving feature of the override. If TSA needed to designate all 
passengers (including any registered travelers) on a designated high-
risk flight as selectees, the Federal Security Director at the 
originating airport could simply instruct the relevant RT service 
provider to provide no overrides during the time period that passengers 
for the designated flight are passing through the RT line; that way, 
all selectees passing through the RT line (including those on the 
designated flight) would be subject to secondary screening.
    Clear does not propose eliminating random selection of RT 
participants for secondary screening. I agree that all security regimes 
must have an element of randomness. TSA should continue to subject RT 
members to occasional random secondary screening, while allowing any 
selectee status governed by certain imprecise data-related factors to 
be overridden more often than not at the discretion of the Federal 
Security Director through the use of an RT stamp--as was done in 
Orlando. Again, the issue is whether RT is truly going to become a risk 
management tool.

    Help for Secure Flight, US-VISIT Rebuffed
    Yes, we are a private company that will profit from our success. We 
don't apologize for that any more than we seek sympathy for the risks 
we take in investing in a new industry and in trying to persuade 
customers to join, one by one. But our success offers more than the 
usual side benefits for our country. Unfortunately, TSA has stiff-armed 
those side benefits, too, again perhaps because it is a private sector 
program.
    True, some of these offers would require adjustments to current 
program processes, but rather than welcome them or at least welcome the 
chance to explore them, TSA just says no.
    We have, for example, offered to solve the predicament of people 
who are wrongly on selectee or no-fly lists--by giving them RT cards 
for free. RT solves this problem because, in order to enroll in RT, so-
called ``false positive'' travelers (like all applicants) must present 
proof of the distinguishing characteristics that separate them from 
their No Fly namesakes, as well as biometrics that confirm their RT 
identities. Thus, the individual who does not belong on the No Fly list 
would get an RT card while the one who belongs on the list would not.
    As a public service, Clear has offered to enroll at no cost all 
adjudicated false positives who are referred (at their request) to 
Clear; thus, they would not have to pay for their bad luck. TSA could 
then allow these registered travelers to proceed directly through the 
RT lane (at participating airports), where they would have to present 
their biometrically-based RT cards for verification. TSA would know 
that these registered travelers had already been cleared by TSA. As a 
result, false positive travelers who enroll in RT--again, at no cost--
would be able to avoid the perpetual and terribly time-consuming 
process of establishing their innocence every time they fly. (As the RT 
program expands to more and more airports, the false positive travelers 
would get greater and greater benefit from this feature.)
    TSA has ignored this offer, even though it would eliminate--at all 
participating airports--what I know is one of the most frustrating case 
work issues your offices deal with every day, as you try to help 
constituents who have the bad luck of having the wrong name.
    We are already offering free cards to members of the military, and 
we are offering a discount of one free month to any government 
employee. But we've offered a much larger discount if TSA will 
recognize the screening that so many government workers have already 
gone through.
    For example, we've asked that the threat assessments conducted by 
the FBI and Secret Service of their own agents be recognized by TSA, so 
that those agents can get cards for far less money. Even DHS 
headquarters employees have inquired if they can get a card at a 
reduced cost because they have already been screened--by DHS. Months 
ago, TSA gave the quintessential bureaucratic response to the question 
of whether the RT program will recognize the screening that many 
governmental employees have already gone through: ``TSA is examining 
this possibility.'' But TSA also said that even if they eventually stop 
studying it and actually do it, they won't under any circumstance waive 
their TSA screening fee of $28.00. That's totally baffling.
    We have also offered to make our kiosks available for conducting 
the verification services for US-VISIT, a process that DHS now wants to 
make the airlines hire people to conduct with additional government-
financed kiosks. That offer, too, has been ignored.
    Finally, as TSA continues to struggle mightily to roll out Secure 
Flight, consider that RT can do 30-50% of Secure Flight's work--at no 
cost to TSA.
    This is because registered travelers fly so often (an average of 40 
times a year, according to the Orlando surveys) that they make up a 
dramatically disproportionate share of the flying public on any given 
business day. A registered traveler need not be subject to a Secure 
Flight search at all, because registered travelers will have been 
cleared in advance (and on an ongoing basis) through a TSA security 
threat assessment. Indeed, the RT background check is substantially 
superior to the likely Secure Flight background check, because only the 
RT background check will be supported by identity verification--first, 
at enrollment with a biometric and with scannable forms of tightly-
defined forms of identification, and then again with a biometric 
whenever a registered traveler flies.
    By having RT members tell the air carrier when making a reservation 
that they are RT members, their boarding passes could require that they 
pass only through an RT lane at the airport--where their identities 
would be verified biometrically. As a result, based on Clear's 
projections that in a full-fledged national program registered 
travelers will make up 30 to 50 per cent of all travelers moving 
through an airport on a busy weekday morning, TSA's daily Secure Flight 
searching burden could be reduced by as many as 1.25 million of the 
Secure Flight's total projected 2.5 million name-matching searches per 
day. RT's relief of Secure Flight can begin immediately (and grow) with 
each expansion of RT to a new location. And, again, those 1.25 million 
travelers would be going through a more secure process than Secure 
Flight is expected to offer. TSA has ignored this offer.

    An Issue of Common Sense
    Almost exactly five years ago this afternoon, President Bush 
promised in his first White House White Paper on ``Securing the 
Homeland,'' that ``The Department of Homeland Security will ensure 
appropriate testing and piloting of new technologies.''
    That promise was separated out in a box entitled ``National 
Vision.''
    Certainly, enough time has passed for this modest goal to have been 
met, particularly when the technology to be tested is going to be 
financed by the private sector and will help secure our homeland. We 
hired no lobbyists to walk the halls of Congress looking for an 
appropriation. Instead, we invested our own private funds in new 
technology, sent the equipment to TSA for testing, and begged the 
government to let us deploy it at our expense.
    If you sense frustration, you're right.
    I got the idea for a voluntary, private sector credentialing 
industry because as a reporter writing a book about the aftermath of 
September 11, I read carefully, and was moved by, that White Paper, in 
which the President called on private companies to become ``a key 
source of new ideas and innovative technologies that will enable us to 
triumph over the terrorist threat.''
    My notion was that this new industry should be strictly regulated 
by the government, and that the government needed to do the screening; 
but I was also convinced that only the private sector could provide--
through a competitive marketplace--the privacy assurances, the customer 
service, the cost-efficiency, and the technology innovation necessary 
for this industry to succeed. I still believe that. And that belief is 
validated by the fact that when TSA launched its own pilot programs in 
2004, which they ended in 2005, they spent $1,500 per card for a 
program that offered little customer service.
    This is not a partisan issue, and it hasn't been one in this 
Committee. Enhancing security by providing secure biometric 
identification and pre-screening to 30-50% of the travelers moving 
through the nation's airports on a weekday morning at zero cost to the 
taxpayers, while allowing hard-working road warriors to spend an extra 
half hour at home and then get through the airport security line at 6 
or 7 in the morning with less hassle, is not a Republican or Democratic 
epiphany. It is a matter of simple common sense--and national security, 
given how much hay it takes out of TSA's security haystack and how much 
in the way of new time-saving and security-enhancing technology it 
could provide.
    This is why Registered Traveler has enjoyed strong support from 
both sides of the aisle in this Committee and across Capitol Hill.
    Getting to Two Million Members in 2008, Four Million by 2010
    Everyone engaged in the creation of the RT program now needs your 
help to facilitate the testing and approval of new technology in order 
to provide benefits in the checkpoint screening process--such as being 
allowed to you're your shoes on, or in the case of our explosive trace 
device, not having remove your outer garments.
    Even if those benefits do not materialize in the short term, we may 
get to 200,000 members by year end. But with those benefits and the 
elimination of the double ID requirement, I am confident we will get 
beyond 500,000 by year end, to two million by the end of next year, and 
to four million by the end of 2010. We continue to gain members and 
offer a real service because the benefits we provide help speed the 
process at the lane. But allowing the deployment of the enhanced 
security equipment would propel the appeal of RT much further--while 
also providing, we believe, better security equipment at these lanes.
    And, obviously, we need you to help get rid of the double ID 
requirement, which we believe has already lowered our renewal rate from 
the mid-90's to 90 percent, as some members vent their well-deserved 
frustration over a requirement that is so nonsensical that to some it 
makes us and the entire program a laughingstock.
    The Saga of the Twelve Year Old_Two IDs at the RT line; No ID's at 
the Regular Line
    I'll conclude with one more, almost comic, story that illustrates 
the state of play. Under TSA regulation, children between the ages of 
12 and 18 can apply for and get RT cards. Also, as you know, people 
under 18 do not have to show ANY form of identification at an airport. 
You probably know where this story is going.
    Yes, TSA recently ruled that a 12 year old RT member must not only 
have his biometric RT card but must also carry his passport or produce 
some other form of government ID (which he is not likely to have with 
him, because few 12 year-olds carry one--because they don't drive) in 
order to get on our line. Yet he can get on any other line and complete 
the screening process without showing ID of any kind, and if he uses 
one of those lines there will be no opportunity to confirm his identity 
using the biometric data embedded in his RT card.
    Please ask TSA to explain why that makes sense. Ask why that is 
good risk management. Please ask TSA to explain why the double ID 
requirement for any RT member makes any sense. Ask what the purpose is 
of the security vetting and biometric verification and those thousands 
of pages of documentation and audits and the millions of dollars worth 
of encryption technology and enrollment processing that surpasses that 
used for DHS's own headquarters employee cards. And please ask why TSA 
still has not re-tested the GE equipment and why TSA has refused even 
to sign a memorandum of understanding with GE that specifies the 
timelines for the testing and includes even a mention of the benefits 
RT participants and the rest of the traveling public might enjoy if the 
re-tests are successful.
    Thank you again for this opportunity to appear before you--and for 
your support of this important risk management program.

    Ms. Jackson Lee. The gentleman's time has expired.
    Thank you. Mr. Connors, you are recognized for 5 minutes.

STATEMENT OF BILL CONNORS, EXECUTIVE DIRECTOR AND COO, NATIONAL 
                  BUSINESS TRAVEL ASSOCIATION

    Mr. Connors. Thank you, Madam Chair and Ranking Member 
Lungren, and thank you, subcommittee members. I am the 
Executive Director and COO of the National Business Travel 
Association. We represent more than 3,000 major corporations 
and their travel managers, buyers and planners, and they 
represent some tens of millions of actual frequent business 
travelers. So I guess I am the panelist up here who actually 
represents the end users of this system.
    And we do, I agree with Mr. Brill, we do believe this is a 
security program, not just a convenience program. But there is 
nothing wrong with a little convenience either.
    NBTA is a strong proponent of the Registered Traveler 
Program and has been for several years. For the business 
traveler, time is money, and this program creates a much more 
predictable airport travel experience and takes some of the 
hassle out of the hassle factor.
    It would enhance the experience while increasing security 
by allowing airport screeners to concentrate on unknowns rather 
than knowns. We believe the RT program can live up to the title 
of this hearing and manage risk and increase efficiency.
    Throughout the public debate on RT, NBTA has consistently 
advocated seven key points. Number one, that it is voluntary in 
nature. Number two, that it is broadly available. Number three, 
that it is interoperable between airport and RT providers. 
Number four, that expedited screening is provided in a 
dedicated lane without slowing the other travelers. Number 
five, protection of participants' data is crucial. Number six, 
the public understands the actual benefits of the Registered 
Traveler Program. Number seven, it enhances the overall 
security of our aviation system.
    In assessing these seven items NBTA believes progress is 
well underway on all of them. Four of these, voluntary 
participation, interoperability, enhanced security and 
protection of data, are all built into the RT business model. 
Others, like broad availability and the public understanding of 
the cost and benefit, are all works in progress. My written 
statement goes into that in more detail.
    While our forecast for the RT program might be rosy, there 
are some areas of additional attention that may be warranted, 
and many of you have already discussed those, but one I would 
like to add, an increasing number of our travelers are 
traveling overseas in this global economy, and in recognition 
of this, the 2008 DHS appropriations bill include provisions to 
authorize an International Registered Traveler Program, and we 
hope the House and Senate conferees will support that provision 
as well.
    Finally, we would like to remind everyone that RT is just 
one program within a broader layered security system and is a 
risk management concept supported by the 9/11 Commission and 
travel organizations like ours.
    Madam Chair, thank you for this opportunity. We believe RT 
can be a program that will enhance travel security as well as 
our economic security by promoting the healthy conduct of 
commerce in our global economy.
    Thank you.
    [The statement of Mr. Connors follows:]

                   Prepared Statement of Bill Connors

    Good morning Madame Chair and Members of the Subcommittee. My name 
is Bill Connors, and it is my honor to testify before you today on 
behalf of the membership of the National Business Travel Association 
(NBTA).
    As the authoritative voice of the business travel community, NBTA 
represents more than 2,500 corporate travel managers and travel service 
providers who collectively manage and direct more than $170 billion of 
expenditures within the business travel industry, primarily for Fortune 
1000 companies.

NBTA Support for Registered Traveler
    NBTA believes that Registered Traveler (RT) programs enable a more 
secure, faster, and more consistent screening process. This, in turn, 
enables the more than 6 million frequent business travelers to be more 
productive while enhancing the security of our nation.
    As a result, NBTA has been a strong supporter of the RT concept 
since its inception. We have participated in the original DHS pilots at 
airports in Minneapolis, Boston and Washington, DC. In fact, I was a 
member of the RT pilot program here at Reagan National Airport.
    Throughout the public policy debate on RT, NBTA has consistently 
advocated 6 key points which we believe are the keys to success:
        <bullet> Voluntary participation (opt-in)
        <bullet> Broad availability
        <bullet> Interoperability between airports and between RT 
        providers
        <bullet> Demonstrably expedited screening provided in a 
        designated lane without slowing other travelers
        <bullet> Robust protection of data collected as part of 
        Registered Traveler enrollment
        <bullet> Public understanding of the benefits offered by 
        Registered Traveler, the costs associated with participation, 
        and the security check process

NBTA Assessment of Where we are Today
    In assessing these six points today, NBTA believes progress is well 
underway on all of them.
    Three of those--voluntary participation, interoperability and 
protection of data are all built in to the TSA RT business model.
    Three others--broad availability, demonstrably expedited screening 
in a designated lane, and public understanding of the costs and 
benefits--are all works in progress. Let me go into each of these in a 
little more detail.

Broad Availability
    One of the keys to having RT realize its potential to more 
predictably and securely move travelers through airports is having the 
program reach sufficient scale. That is, travelers to top airports 
should have access to RT programs on all legs of their trip. While 
there is some value in being able to use this program on even one part 
of a business trip, our members are keenly watching to see the program 
grow to all major airports, thereby adding predictability throughout 
more of a business trip.

    Today, several airports are currently online with registered 
traveler programs
        <bullet> JFK, with three terminals offering programs
        <bullet> Cincinnati/Northern Kentucky International Airport
        <bullet> Indianapolis International Airport
        <bullet> San Jose International Airport
        <bullet> Orlando International Airport
        <bullet> Reno Tahoe International Airport
        <bullet> Terminal B at Newark
    Other airports are in the final stages of building out their RT 
programs, having already selected a vendor:
        <bullet> San Francisco
        <bullet> Albany
        <bullet> Westchester County Airport
        <bullet> LaGuardia
        <bullet> Little Rock
    Additionally, several airports are having RT services built now, or 
looking to acquire them, including
        <bullet> Huntsville International Airport
        <bullet> Los Angeles International
        <bullet> O'Hare
        <bullet> Denver
        <bullet> Miami
        <bullet> Washington Dulles
        <bullet> Washington National
    It's interesting to note that while we speak, the Washington DC 
area airports are considering bids from approved RT vendors to roll out 
the program here in our area, with Baltimore expected to follow suit 
soon thereafter.

Demonstrably Expedited Screening
    When talking to business travelers about their reasons for seeking 
an RT card, one stands above all others--predictability in moving 
through the airport, curb to curb. They expect these designated 
security checkpoints to allow them to move more quickly and efficiently 
through the airport, bypassing the long lines often created by 
infrequent travelers who are unfamiliar with checkpoint security 
procedures. While many people believe that the so called ``big three'' 
security benefits of RT--keeping lap tops in bags, keeping coats on and 
keeping shoes on--are the keys to demonstrably expediting screening, we 
would add the following perspective. While these three items would 
surely speed business travelers through checkpoints, what our members 
have already adapted their flying habits to account for these 
procedures.
    From the frequent business traveler perspective, the key to moving 
through checkpoints today is traveler behavior and familiarity--or lack 
thereof--on how to rapidly move through the TSA checkpoint. To the 
degree that RT lanes are used by frequent business travelers who know 
how to efficiently move through the checkpoint, that in and of itself 
is a benefit of the program.
    Therefore, as RT vendors test and deploy new technologies that 
allow travelers to keep their laptops in their bags, and keep their 
shoes and jackets on, we hope that the new technology will not slow 
down the travel experience of our members moving through RT lanes 
today.

Public understanding of the costs and benefits
    The last point NBTA would like to make is on the public 
understanding of the costs and benefits of the RT program. This is an 
area where both the RT vendors and the TSA leadership have a 
responsibility. In this vein, we have some recommendations for both 
sides on how they can be more effective.
    On the private sector side, we feel confident that all of the 
vendors do a great job touting the benefits of their own programs--and 
that's to be expected. As vendors invest in security enhancing 
technology and use it to gain market share, we will be on the lookout 
for any confusion that might arise in the marketplace, particularly 
around the issue of interoperability of RT systems.
    Our final issue in the area of public understanding is the role of 
the federal government. While this is a private sector program overseen 
by the government, the TSA has an important role to play in supporting 
the concept of RT. It is, we believe, perfectly aligned with the risk 
management philosophy espoused by the Administration and homeland 
security experts. However, we often hear inconsistent messages out of 
TSA--some wholeheartedly supporting the program, others casting doubt 
on the value of background checks performed, others focusing on the 
investments RT service providers will have to make in order to have 
customers realize security benefits.
    These varied messages can create confusion among the public and 
make many of us in the private sector doubt TSA's commitment to the 
program. We certainly hope that TSA and DHS will soon consistently 
deliver strong public messages of support for RT, and save 
deliberations on program improvements for private conversations with 
stakeholders.

The Future of RT
    While we believe the forecast for the growth of RT is quite rosy, 
there are several areas where NBTA believes additional attention is 
warranted.
    Over the next 12 to 18 months, we expect the number of airports 
with RT programs to grow to most, if not all, of the top airports in 
the nation, thereby providing true value for business travelers. With 
such a critical mass of airports involved, we believe certified RT 
services providers will begin to more aggressively work with the 
employer community to expand opportunities to enroll in the program, 
perhaps by locating kiosks in corporate headquarters, hotels, 
convention centers and the like. By taking steps like these to make 
enrollment more widespread, momentum can be built to encourage 
additional airports to contract with RT services providers.
    Additionally, the government and private sector RT vendors should 
give strong consideration to enhancing efficiency at airport 
checkpoints by auto enrolling in the program segments of the population 
that are known to pose negligible security risks. Federal workers with 
security clearances, members of the Transportation Worker Identity 
Credential program, and enrollees in the U.S.-Canada NEXUS program--are 
good examples of such populations who should almost automatically be 
included in RT, given the security checks they have already undergone.
    Third, we would like to note that an increasing percentage of a 
business traveler's time is spent visiting growing foreign markets. In 
recognition of this trend, the Senate passed version of H.R. 2368, the 
2008 Department of Homeland Security Appropriations bill, included 
provisions by Senator Mel Martinez (R-FL) and Senator Susan Collins (R-
ME) to authorize an International Registered Traveler (IRT) Program. 
Like the domestic program we have been discussing today, the IRT 
program would expedite the security checks for frequent international 
travelers traveling to the United States. We hope that all the House 
and Senate conferees will support this provision and include it in the 
DHS appropriations bill that is eventually sent to the President.
    Finally, we would remind the committee that RT is one program 
within a layered security system governing our air transportation 
network. When deployed in conjunction with Secure Flight, the soon to 
be announced government effort to vet unknown travelers, RT is a key 
part of build both efficiency and security into our system. We 
certainly hope that TSA soon moves to deploy the long-delayed Secure 
Flight program and utilizes it effectively, from both security and 
privacy perspectives.
    Madame Chair, thank you again for giving me the opportunity to come 
before you today and provide the views of the business travelers, 
corporate travel managers and travel service providers on the 
Registered Traveler program.

    Ms. Jackson Lee. Let me thank the witnesses on the second 
panel for their testimony. And I will remind each member that 
he or she will have 5 minutes to question the second panel. And 
I will begin by yielding myself 5 minutes.
    When Mr. Hawley finished his testimony and answered my 
final question, as the representative for the Transportation 
Security Administration, he indicated that he was not opposed 
to the technology, that he was open to the technology, and that 
he was looking forward to the standards that were recently 
issued being applied to the technology in the coming months.
    Mr. Brill, what is the time frame for compliance with the 
standards now that I understand have been issued by TSA?
    Mr. Brill. There is no time frame that has been issued. 
They have told General Electric 17 months later that they can 
come in--they can now bring this back to be retested. There is 
no schedule that I know of. General Electric asked them to put 
it in a simple memorandum of understanding language that said 
if this is tested, if it passes the test, you will recommend to 
the Administrator that this benefit be included. They wouldn't 
even agree to that.
    Ms. Jackson Lee. This is TSA staff?
    Mr. Brill. It is the staff that is the issue here. This 
program has been stiff-armed at every step.
    Ms. Jackson Lee. You didn't answer my question.
    Mr. Brill. The answer is there is none.
    Ms. Jackson Lee. There were standards issued that would 
improve the technology, to my understanding. Is that correct? 
That TSA indicated that they wanted to see the next step of 
technology as relates to explosive materials in the shoe?
    Mr. Brill. GE has been given standards by TSA as of 
yesterday, the day before.
    Ms. Jackson Lee. Is it my understanding GE is going to move 
forward?
    Mr. Brill. Exactly. As fast as they can.
    Ms. Jackson Lee. That is the answer. They are prepared to 
move forward on at least the representative requirements that 
TSA says they have to have. They are ready to move forward, the 
private sector.
    Mr. Brill. Correct.
    Ms. Jackson Lee. The difficulty, as we heard in the earlier 
panel, is the affirmation or the approval by TSA that this 
program will be implemented.
    Mr. Brill. Yes. And to break that down a little bit, once 
the standard is set and once the test is passed, which we saw 
happen in Orlando, Mr. Hawley assured me at that time that as 
that long as the FSD, the local federal security director 
approved the implementation, everything would go forward, and 
then that didn't happen; it turned out there was another office 
and then another office that had to approve this.
    If you sense skepticism in my voice it is because at every 
turn something else keeps coming up that is not about security, 
it is not about security. TSA is in charge of security, not us. 
It is not about security. And I think this office has never 
gotten over the fact that they started the pilot project that 
my friend Mr. Conaway ran, the government spent $1,500 per card 
for the pilot projects to find out that the technology worked 
and then suddenly it became a private sector project for $99.
    Ms. Jackson Lee. Why do you think Mr. Hawley is asking for 
an additional picture beside the RT picture, and if you can 
give me a quick answer so I can ask Mr. Connors a question.
    Mr. Brill. We could put up a dart board and put six answers 
on that dart board and throw a dart at one of them any day of 
the week and get a different answer. We have gotten six 
different answers.
    Ms. Jackson Lee. What do you think?
    Mr. Brill. I know, actually. An inspector came down to 
Orlando in the fall of 2006, just a routine inspection in 
Orlando, and he saw the Registered Traveler line, so people 
weren't showing their driver's license, and said to the federal 
security director what is that? He said that is the Registered 
Traveler line. And the inspector said what is that? And they 
explained to him what Registered Traveler was.
    He quickly wrote a memo, which the federal security 
director I think sent to me, saying you have got to show a 
picture ID. I sent it to Mr. Hawley, or I called Mr. Hawley and 
said this is obviously ridiculous, this guy obviously doesn't 
know about registered traveler. Mr. Hawley said it is, I will 
check into it.
    The next I knew, this is a pattern, the next I knew, what 
was ridiculous was suddenly unridiculous because the staff came 
up with six or seven reasons why.
    Ms. Jackson Lee. They had no incredible reason as you can 
define it.
    Mr. Brill.? They just couldn't do what the press could 
never do, which is admit a mistake. Screwed up.
    Ms. Jackson Lee. You do have that background. Let me just 
quickly ask, you recognize our job here is securing America and 
assuring its security. You would welcome the opportunity to 
refine the vetting system.
    Mr. Brill. The answer is yes, this is a voluntary program, 
and our members would welcome it. We would welcome it, but we 
have been told that before.
    Ms. Jackson Lee. We are here to start a new day and turn on 
the light.
    Mr. Connors, very quickly, are you here supporting the 
Registered Traveler on behalf of business travelers?
    Mr. Connors. Yes, absolutely.
    Ms. Jackson Lee. Would your travelers welcome a more 
extended vetting beyond just checking their name against a 
watch list?
    Mr. Connors. I think they are under the impression that 
that already exists. I went through the pilot program myself 
here in Washington, D.C.
    Ms. Jackson Lee. It may not exist. So the question is would 
they be willing in your belief to take a more extensive vetting 
of their background?
    Mr. Connors. Yes, I do think so because I think they 
believe that is happening now, and they are signing up for it 
in droves.
    Ms. Jackson Lee. I thank you. Let me yield now to the 
ranking member for 5 minutes.
    Mr. Lungren. Thank you very much. Mr. Brill, what is the 
background check that goes on right now with people who sign 
up?
    Mr. Brill. I am delighted to say I don't know the details 
of it, nor should I. It is a security process that TSA is 
responsible for. My understanding, because I have heard it 
articulated in the past, is that it is much more than one watch 
list, as Congressman Lofgren pointed out, and it is also a 
wants and warrants list.
    I know it is a check of citizenship because the people who 
sign up and who don't get it invariably is because they said 
they were U.S. citizens, and TSA is checking that and they find 
out that they are not U.S. citizens. I think Mr. Hawley was 
misinformed about the nature of the check.
    Mr. Lungren. Well, the question goes to this whole issue 
about commercial vendors having information on people that they 
could go and distinguish between. One happens to be John 
Anderson, the former presidential candidate and gets stopped at 
every airport, and we had a hearing on that. The only way to 
exclude him is to query some systems that are more than what 
the government----
    Mr. Brill. Not exactly. If there are four John Andersons, 
what TSA wants to know or what any keeper of a watch list wants 
to know is which John Anderson lives in Brooklyn and which one 
is from whatever district he was from in Illinois, and which 
one is from California. It is the one who has a certain date of 
birth and address tied to a name that is meant to be on their 
watch list.
    The way you find that out is through Registered Traveler. 
People have to show up to enroll, they have to bring their 
documents like their driver's license and their passport, which 
gets scanned through a machine looking for forgeries. We 
authenticate those documents before we say that you are John 
Anderson who lives at this address.
    So we have offered to TSA, we have offered repeatedly that 
we will give, give a Registered Traveler card to anyone who has 
the problem that Senator Stevens' wife has, or that Ted Kennedy 
has, which is the misfortune of having a wrong name, and they 
are always on the list. We will give cards to them because our 
process separates out, if you will, the good John Andersons 
from the bad John Andersons.
    Mr. Lungren. Have you sat down with TSA about this?
    Mr. Brill. Repeatedly. They don't want to get that help 
from a private sector program. We have done it repeatedly. We 
have said to TSA we got a call from an employee at DHS saying 
we would like to get a discount Registered Traveler card. We 
have said the government employees can have a discount but you 
can have a deeper discount, like almost for free, if TSA will 
simply recognize the screening you have already gone through.
    We have asked TSA will you recognize the screening that DHS 
employees at headquarters go through? They have said no.
    You laugh.
    Mr. Lungren. I am not sure what to say to that.
    Let me ask you this about the machinery that you have with 
GE. In the exhibit that you had over in the other building it 
purports to identify metal in shoes, purports to identify 
explosive--any sense of explosives either of the shoes or of 
the fingers, is that correct?
    Mr. Brill. If you have a trace of residue on the finger, 
and supposedly that is very sensitive. Supposedly it is. It 
certainly is more sensitive, just logic would say, than not 
doing it.
    Mr. Lungren. And are these the two things that you have 
been told TSA, if it works, would accept for giving you some 
benefits in streamlining the security review?
    Mr. Brill. I don't want to mischaracterize any of it. TSA 
or GE has not promised us anything in return for anything, 
although TSA did announce to the press in December of 2006 that 
the shoe scanner had been tested and was ready to be used to 
vet shoes and then suddenly they changed their minds. But that 
is their right. They should change their minds. They shouldn't 
worry about being embarrassed if it is a security issue to 
change their mind. We just think this could be done on a faster 
track.
    We are not--I mean I have a lot of respect for, people too, 
so I know what they go through every morning in that office 
when they get intelligence threats, I know there are people 
trying to do us harm through aviation, I just don't see the 
can-do attitude, the welcoming attitude that I saw way back, 
when, when I was writing about them.
    Mr. Lungren. Thank you. Appreciate it very much. I am sorry 
I have to leave. We have a FISA briefing from another 
committee. I appreciate this presentation, and I hope that this 
helps us try and bridge the gap that seems to exist between TSA 
and the private sector that seems very evident by what is being 
said here at this hearing.
    Mr. Brill. There shouldn't be a gap.
    Mr. Lungren. I agree with you. I mean I agree with-- I 
would like to see us somehow bridge that gap. I think you will 
find most members on this committee, if not all members of this 
committee and subcommittee, want to see that as well. Thank you 
very much.
    Ms. Norton. [presiding.] Thank you, Mr. Lungren. I yield 
myself 5 minutes. The reason I have begun to lose patience with 
this process is the absence of detail as to what needs to be 
done to either move it faster or to correct whatever problems 
have been found. I have lost patience because I sit on the 
Aviation Subcommittee, and if you sit on that subcommittee you 
will have to believe that the future lies in technology rather 
than the systems that TSA is relying on. Multiple layers, as he 
spoke of in his testimony.
    I mean this is not Israel, a small country where you might 
be able to have sufficient people to do these multiple layers 
and be convinced that human error would not take place, and 
save us, please--don't talk to this committee about the watch 
list. Save us from the watch list, if that is the pen and 
paper, that list of names is what we are talking about.
    I begin my question this way because very frankly the 
errors that we find every time that we test TSA's present 
technology terrifies the public. That is to say human beings 
are human beings, they always will be, and the devices are 
repeatedly found. Meanwhile, private industry develops what 
appears to be moving toward a fairly fool-proof technology, and 
we can't get any answers about what is delaying it.
    Far from interesting, and I don't even have to get on the 
planes, every member of this committee is very interested in 
speeding this lineup. I am on this committee, I am on the 
Aviation Subcommittee, and I am terrified at what TSA is now 
doing in slowing up, getting us to a process that is above 
anything now apparently even contemplating.
    So my question doesn't go to how do we move to the next 
level of doing some testing, I want to know from you, Mr. 
Conaway, and you, Mr. Brill, whether or not you think that we 
could in reasonable time get to the point where we use 
universal RT rather than RT for those who pay a hundred dollars 
in a business class of passengers who are leading the way.
    I have lost confidence in what we are doing now and what 
the head of TSA seems to be depending upon to move on. I would 
rather accept errors from technology than the errors I see 
before me as a member of the Aviation Subcommittee.
    So I am going for a faster track, not to slow the lines 
down. I am asking for a faster track for security reasons 
because I do not believe we can continue to tell the public 
that you are secure when you get on airlines, given the 
methodology we are now using.
    Mr. Brill. I think you can move toward what I would call 
universal RT, it would be RT in which you would let people who 
are law enforcement, members of law enforcement and other 
people who have already been screened, who somewhere some 
responsible end of the government has said these people are 
security safe, such as the staff on this committee, for 
example.
    Ms. Norton. You mean a background check?
    Mr. Brill. Why should a Secret Service agent have to pay us 
and have us pay TSA $28 for him to get a background check to 
join Registered Traveler. That is just crazy. So I think you 
can have near universal RT if you involved people who are 
background screened. We already offer the card for free to 
active duty members of the military.
    Ms. Norton. So if 70 percent of the public said I want to 
be background screened.
    Mr. Brill. If 70 percent of the public had EZ Pass to go 
over the Triborough Bridge, everybody would go faster because 
you have that many more EZ Pass lanes. What has to happen 
though is we are not asking for any security benefits because 
of the screening, we are just saying not add a security burden 
of two forms of identification. That is just insane.
    Ms. Norton. Or take off their shoes.
    Mr. Brill. We are saying if this equipment works, give it a 
fair shot, and if it works, it is your decision. If it works, 
allow people not to take their shoes off. But at least in the 
interim while you are testing the equipment, and for God's 
sake, test it on some kind of transparent schedule, stop 
imposing a double burden on Registered Traveler members 
because, people laugh at us. They say what is the purpose of my 
card if you are making me show my fishing license or driver's 
license. No one has an explanation.
    Ms. Norton. Mr. Conaway.
    Mr. Conaway. Let me offer a slightly different take on this 
and separate out a background check from the security check 
that goes on at the checkpoint itself because there is a threat 
with a clean-skinned terrorist that has never--would pass a 
background investigation but still may do something bad.
    If RT were to move forward the way industry had envisioned 
it, what it would open up is a means of bringing private 
capital into advancing the state of the art of sensing 
technology that could be used at the checkpoint. If we make 
that work for a Registered Traveler lane, then why couldn't 
that then be the impetus to take that same technology and now 
implement it in all the other lanes at the airport.
    Ms. Norton. The Federal Government will never pay for the 
kind of technology you are developing, sir. Never pay for it. 
Therefore they are paying for low tech. We will never be able 
to get them to pay for the kinds of things you are doing and 
therefore bringing private capital into it would be----
    Mr. Conaway. The biggest problem is the largest cost there 
is the research and development. Once it is available for 
production----
    Ms. Norton. I am sorry; the President proved that is not 
the case. I just want to say, Madam Chair, because I want Ms. 
Lofgren to have a chance before you go to vote, that there is 
one analogy here. This same TSA refused to open, the general 
aviation, Reagan National, despite the Transportation Committee 
giving them--including a bill. Not until the chairman of the 
committee said that unless they issued regulations so we know 
if it is safe or not, he would hold them in contempt. That was 
4 years after 9/11 did they open it. These folks we have heard 
here today are not going to let these folks move forward unless 
this committee makes it happen.
    Thank you very much, Madam Chair.
    Ms. Jackson Lee. [presiding.] Yield to Mr. Broun for 5 
minutes.
    Mr. Broun. Thank you, Madam Chair. I just have a quick 
question or two, Mr. Conaway, Mr. Brill, I think either one of 
you may be able to answer this. Is it your gut feeling that TSA 
is dragging their feet because they absolutely don't want to 
institute an RT type program?
    Mr. Brill. I will take my government contractor friend off 
the hook here. I think there are two reasons; one is, and I 
think Kip Hawley is a terrific public servant and a sincere 
person. I think he has not yet grasped the fact that this is a 
security program, not a convenience program.
    Risk management is not about providing convenience, it is 
about providing security. This is a risk management program. 
When Secretary Chertoff talks about risk management, this is 
the embodiment of a risk management program. I don't think he 
appreciates that, and his staff has done everything to 
misinform him about what this program is all about, even to the 
point where you heard him today say he hadn't heard about the 
12-year-old thing, where a 12-year-old has to show two forms of 
ID on our line and nothing on anybody else's line.
    He has gotten e-mails about that, everybody knows about 
that. It has been the subject of a lot of discussion, a lot of 
complaints from our customers. So I think it is a combination 
of he is misinformed. He has not made it a priority because he 
sincerely believes it is a convenience program, not a security 
program.
    I think if you can take 30 to 50 percent of the people 
moving through an airport and test them for traces of 
explosives and test their shoes and know their biometrics and 
know their identities, that is a security program.
    Mr. Broun. Can you assure the American public that with the 
current level of technology, that these people are going to be 
secure with what you have right now?
    Mr. Brill. Risk management is not about the elimination of 
risk. There is no way that anyone conducting any kind of 
security program in the United States can assure anyone. We 
can't be sure that a Secret Service man isn't going to have a 
problem in the White House.
    I can assure you that we are completely in agreement with 
the idea that TSA ought to make the decisions about the 
security. We are not asking them to make a certain kind of 
decision. I don't know anything about that technology. I would 
be the last person on Earth you would want to have say use that 
and don't make people take off their shoes.
    There are a lot of very good experts at GE and elsewhere 
and in labs, including TSA's own chief technology officer in 
December of 2006, who said it was very good security. We are 
just asking for crisp, transparent, fair decisions by people 
who actually want the program to work, don't see it as some 
burden of some pesky business people who just want to get 
convenience for 1 or 2 percent of the population.
    Mr. Broun.T1 So your level of security is as high or 
better?
    Mr. Brill. We think it is better. We are not asking for--
the benefit we are asking for today is don't make us show two 
forms of identification, make us show one the way everybody 
else does. That is today's benefit. We are asking for a test of 
the equipment. That is not an unreasonable benefit. We just 
want to show one form of identification that happens to be 
biometrically secure as opposed to a fishing license or the 
Orlando Public Library library card or the library card of 
Kazakhstan. There are no standards for those photo IDs. That is 
all we are asking for today.
    Mr. Broun. Thank you. Madam Chairwoman, I yield back.
    Ms. Jackson Lee. We do have a vote on the floor. We would 
like to finish this hearing.
    Ms. Lofgren.
    Ms. Lofgren. I will be very quick. Thank you, Madam 
Chairwoman, and thank you again for holding this hearing that I 
think has been very useful.
    There is something here that doesn't make sense to me and I 
am wondering, Mr. Brill, you have been outspoken here, and 
logical. Why do you think TSA is doing what it is doing? The 
standards are issued yesterday, I have got to suspect that is 
because the hearing was today.
    Mr. Brill. Of course.
    Ms. Lofgren. Why is it developed in this way?
    Mr. Brill. It goes back, I knew you were going to ask a 
question like that because we have had a conversation akin to 
that. I was thinking about 6, 8 months ago I got a call or we 
got a notice from the TSA, this credentialing office, we are 
going to have an industry day meeting, please be here at 9:00 
tomorrow. Something dawned on me. These people think that I am 
some government contractor hanging around Washington ready to 
go talk to the boss of the government who pays my bills and if 
they called a meeting for 9:00, I just better get there at 
9:00, and if they change it to 11:00, or make us wait, we will 
do that too.
    The basic attitude is that they, the government programs, 
are to be paid for by taxpayers and here we are doing 
something, and not just Unisys and a lot of people, doing 
something that is creative and that is not a government program 
and I just think they don't like it. I don't think it has 
anything to do with anything really other than that. Their 
directives are confusing, illogical. The best one is the 12-
year-old having to show two pictures.
    Ms. Lofgren. It doesn't add up. I guess the question I 
further have is how are we going to--we have had this hearing 
today, it is important, but in the history of the Department of 
Homeland Security you have a hearing and then nothing happens. 
And so we all know it because we have been on the committee now 
for a long time. And the lack of performance in the Department 
generally is stunning.
    I would invite, I know we have a vote and I don't want to 
go on, but I would invite the comments or thoughts of all three 
witnesses on suggestions on what we might do to set this thing 
right. I think there is an interest on a bipartisan basis to do 
that.
    When I walk by every Monday morning at the San Jose airport 
I would like to think we accomplished something in the 
committee instead of not.
    I thank the gentlelady for yielding and for my opportunity 
to participate in this subcommittee hearing. I will yield back 
because we do have to get to the floor to vote.
    Ms. Jackson Lee. Ms. Lofgren, let me thank the members of 
this committee.
    All of you have provided very instructive, and all of the 
members have had very instructive questioning. This is a good 
hearing.
    I will accept the challenge from Congressman Lofgren before 
I close the hearing, pose just a question and then say to you 
that we are not going to go from the bottom up. Frankly, this 
is a problem that has to be solved for the security of 
Americans, and I think we do a disservice to 21st century 
security if we ignore technology. And frankly there seems to be 
a disconnect.
    This has been an instructive and enlightening hearing, 
primarily because we have found part of the crux of the problem 
and it seems to be in contrast to the Science and Technology 
Assistant Secretary who is traveling all over the country 
looking for innovative technology to secure America.
    So let me just very quickly ask, Mr. Connors has gotten on 
record that he is supportive of a process that improves 
technology and moves business travelers along. Let me make sure 
Mr. Conaway is not saying something differently regarding 
technology, and you would have no problem to GE meeting the 
standards of TSA and using an RT program that might in fact 
take up to 70 percent of America's population, traveling 
public. Would that be something you would oppose?
    Mr. Conaway. No, ma'am.
    Ms. Jackson Lee. Mr. Brill, we have spoken about 
sophisticated business travelers and you have spoken about the 
Secret Service and FBI and others, but there is the 90-year 
old--or maybe a 50-year old; let me go to the 90-year old, with 
an artificial hip, leg or otherwise, but still going.
    These kinds of inconsistencies that we find in our 
traveling public that are facing--that they face with regards 
to security. I don't think I have preempted the fact that we 
are stopping people with breast milk and some other things come 
August 4th.
    Can you work with the idea that we begin to look top down 
and take this to the policymakers of the agency so that we can 
frame the best way to make RT work? Would the private sector 
work with us on that?
    Mr. Brill. Yes, ma'am. That in fact was the idea we had 
when we offered TSA tell us who you have adjudicated off of the 
threat list, off of the watch list, which is something that 
caseworkers in all of your offices have to deal with every day, 
and if they want to, they can volunteer. We will give them 
Registered Traveler cards for free, which is the only way that 
adjudication works.
    By the same token, if someone has some metal in a leg or 
something else, if TSA will adjudicate those people and 
instruct them to give--instruct them that they qualify for a 
card, we would do that. We see the public service in sort of a 
selfish way, which is we want TSA and the government to support 
this program and support voluntary credentialing so we would, 
as with people on the threat list, we would give, give the card 
to those people. You shouldn't have to pay us a hundred dollars 
because you have the bad luck to have a bad name and you are on 
a threat list. As long as TSA will tell us that. They just turn 
us down.
    Ms. Jackson Lee. Let me just say that I think we need to 
end on the note that this committee will not leave this 
unattended to. We want to achieve the highest level of security 
for the RT program but, frankly, I think as some of my 
colleagues have indicated, I am interested in a vastly expanded 
program only because I want the resources of the Transportation 
Security Administration focused on those who are going to 
attempt, as the National Intelligence Estimate has said, to do 
this country harm and to create havoc and to create a terrific, 
horrific terrorist act.
    So let me conclude by saying that this will be, I guess, 
the first of the beginning of how we address the question on 
the RT program. Let me thank the witnesses for their valuable 
testimony and the members for their questions. Members of the 
subcommittee may have additional questions for the witnesses. 
We will ask you to respond expeditiously in writing so that 
those questions can be answered.
    Hearing no further business, the subcommittee now stands 
adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
